<html>
<title> - ISIS IN THE PACIFIC: ASSESSING TERRORISM IN SOUTHEAST ASIA AND THE THREAT TO THE HOMELAND</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









  ISIS IN THE PACIFIC: ASSESSING TERRORISM IN SOUTHEAST ASIA AND THE 
                         THREAT TO THE HOMELAND

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                            COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2016

                               __________

                           Serial No. 114-65

                               __________

       Printed for the use of the Committee on Homeland Security
                                     



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________
                               
  
                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-758 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                             
                              
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Candice S. Miller, Michigan          Brian Higgins, New York
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
                   John Dickhaus, Subcommittee Clerk
            Hope Goins, Minority Subcommittee Staff Director
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Prepared Statement.............................................    31
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     3

                               Witnesses

Mr. John T. Watts, Nonresident Senior Fellow, Brent Scowcroft 
  Center on International Security, Atlantic Council:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7
Mr. Patrick M. Skinner, Director of Special Projects, The Soufan 
  Group:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Ms. Supna Zaidi Peery, Research Analyst, Counter Extremism 
  Project:
  Oral Statement.................................................    15
  Prepared Statement.............................................    18
Mr. Joseph Chinyong Liow, Senior Fellow, Foreign Policy, Center 
  for East Asia Policy Studies, The Brookings Institution:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24

                                Appendix

Questions From Ranking Member Bennie G. Thompson for John T. 
  Watts..........................................................    47
Questions From Ranking Member Bennie G. Thompson for Patrick M. 
  Skinner........................................................    47
Questions From Ranking Member Bennie G. Thompson for Supna Zaidi 
  Peery..........................................................    48
Questions From Ranking Member Bennie G. Thompson for Joseph 
  Chinyong Liow..................................................    48
 
  ISIS IN THE PACIFIC: ASSESSING TERRORISM IN SOUTHEAST ASIA AND THE 
                         THREAT TO THE HOMELAND

                              ----------                              


                       Wednesday, April 27, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 311, Cannon House Office Building, Hon. Peter T. King 
[Chairman of the subcommittee] presiding.
    Present: Representatives King, Katko, Higgins, Keating, and 
Vela.
    Mr. King. The Subcommittee on Counterterrorism and 
Intelligence will come to order. The subcommittee is meeting 
today to hear testimony from 4 very distinguished experts 
regarding Islamist ideology and Southeast Asia.
    I would like to welcome the Members of the subcommittee and 
express my appreciation to the witnesses who are here today. I 
recognize myself for an opening statement.
    The spread of Islamist terrorism, around the world, is a 
major concern for U.S. Homeland Security. Addressing this 
threat requires steadfast monitoring and proactive actions in 
every corner where ISIS and al-Qaeda ideology is spreading. 
There were indications of ISIS and Islamist ideology spreading 
throughout parts of Southeast Asia that are reminiscent of this 
violent ideologist expansion in Yemen, Libya, Nigeria, Somalia, 
and elsewhere in Africa.
    In recent years, there have been several high-profile 
terrorist plots in the region, primarily linked to violent 
Islamist extremist networks.
    In 2016, there has been a number of attacks and security 
concerns throughout the region. In January, ISIS claimed 
responsibility for a coordinated attack in Jakarta, Indonesia 
that claimed 8 lives and wounded dozens more.
    In February, the British and Australian Governments issued 
terror warnings for travelers going to Malaysia.
    On April 9, ISIS claimed responsibility for an attack in 
which 18 Filipino soldiers were killed and more than 50 
wounded. A few days later, Islamist terror group Abu Sayyaf, 
which has been linked to al-Qaeda and ISIS, beheaded 2 Filipino 
hostages. In Bangladesh, 5 secular bloggers and a publisher 
have been murdered in the past year in attacks that appear to 
have been inspired by terrorists ideology.
    Just this past Monday, Islamist militants killed Xulhag 
Mannan, an editor of Bangladesh's first LGBT magazine. The U.S. 
Embassy in Bangladesh confirmed that Mr. Mannan was an embassy 
employee and worked with USAID. A group linked to al-Qaeda in 
the Indian continent, AQIS, claimed credit for the attack.
    Also, on Monday, Canadian Prime Minister Trudeau announced 
that Abu Sayyaf has killed John Ridsdel, a Canadian citizen, 
who had been kidnapped from a resort in the Philippians last 
September. Our thoughts and prayers go out to both of their 
families.
    Estimates of Southeast Asian fighters that have traveled to 
Syria to join ISIS range between 800 to more than 1,200. Public 
reporting highlights the creation of an ISIS military unit in 
Syria comprised of individuals recruited from Malaysia and 
Indonesia, known as the Malay Archipelago Combat Unit. Similar 
to what we have seen with Australians and Western Europeans, 
there are indications that some Southeast Asian recruits from 
this unit are trying to direct and inspire pro-ISIS attacks in 
the region.
    The presence of Islamist terror groups in Southeast Asia is 
not a new development. There are historical connections between 
the Southeast Asian region and Islamist terror groups.
    Al-Qaeda used a number of major cities in the region for 
meeting sites, including planning the September 11 attacks. 
While many have speculated that while al-Qaeda's influence has 
declined, in January 2016, Ayman al-Zawahiri, the current 
leader of al-Qaeda, released a statement specifically 
addressing Southeast Asian Muslims and encouraged sympathizers 
in the region to attack U.S. interests. With both al-Qaeda and 
ISIS seeking to recruit and radicalize in the region, the 
United States must be proactive in working with regional 
governments to counter the ideology and identify potential 
threats.
    Through today's hearing, we will hear from counterterrorism 
and regional experts about the current influence of ISIS in the 
region, efforts to address the threat, and what more the United 
States and allied nations should do to prevent this region from 
becoming a bigger source of fighters, funding, and operational 
plotting.
    Many are skeptical that the violent Islamist groups, 
extremist groups of Southeast Asia could present a real threat 
to U.S. allies, interests in the U.S. homeland; this is the 
same skepticism that ignored the threats from Yemen, Nigeria, 
and Libya until they had grown out of hand. While rightfully 
focussing on Syria and Iraq in our fight against ISIS, we 
should not ignore the growth of extremist activity and ideology 
in other parts of the world.
    [The statement of Chairman King follows:]
                  Statement of Chairman Peter T. King
                             April 27, 2016
    The spread of Islamist terrorism around the globe is a major 
concern for U.S. homeland security. Addressing this threat requires 
steadfast monitoring and proactive actions in every corner where ISIS 
and al-Qaeda ideology is spreading.
    There are indications of ISIS and Islamist ideology spreading 
through parts of Southeast Asia that are reminiscent of the violent 
ideology's expansion in Yemen, Libya, Nigeria, Somalia, and elsewhere 
in Africa. In recent years, there have been several high-profile 
terrorist plots in the region, primarily linked to violent Islamist 
extremist networks. In 2016, there have been a number of attacks and 
security concerns throughout the region.
    In January, ISIS claimed responsibility for a coordinated attack in 
Jakarta, Indonesia that claimed 8 lives and wounded dozens more. In 
February, the British and Australian governments issued terror warnings 
for travelers going to Malaysia. On April 9, ISIS claimed 
responsibility for an attack in which 18 Filipino soldiers were killed 
and more than 50 wounded. A few days later, Islamist terror group Abu 
Sayyaf, which has been linked to al-Qaeda and ISIS, beheaded 2 Filipino 
hostages.
    In Bangladesh, 5 secular bloggers and a publisher have been 
murdered in the past year in attacks that appear to be inspired by 
terrorist ideology. On Monday, Islamist militants killed Xulhaz Mannan, 
an editor Bangladesh's first LGBT magazine. The U.S. Embassy in 
Bangladesh confirmed that Mr. Mannan was an Embassy employee and worked 
with USAID. A group linked to al-Qaeda in the Indian Subcontinent 
(AQIS) claimed credit for the attack.
    Also on Monday, Canadian Prime Minister Justin Trudeau announced 
that Abu Sayyef had killed John Ridsdel, a Canadian citizen who had 
been kidnapped from a resort in the Philippines last September.
    Our thoughts and prayers go out to both of their families.
    Estimates of Southeast Asian fighters that have traveled to Syria 
to join ISIS range between 800 to over 1,200. Public reporting 
highlights the creation of an ISIS military unit in Syria comprised of 
individuals recruited from Malaysia and Indonesia known as the Malay 
Archipelago Combat Unit. Similar to what we have seen with Australians 
and Western Europeans, there are indications that some Southeast Asian 
recruits from this unit are trying to direct and inspire pro-ISIS 
attacks in the region.
    The presence of Islamist terror groups in Southeast Asia is not a 
new development. There are historical connections between the Southeast 
Asian region and Islamist terror groups. Al-Qaeda used a number of 
major cities in the region for meeting sites, including planning the 
September 11, 2001 attacks.
    While many have speculated that al-Qaeda's influence has declined, 
in January 2016 Ayman al-Zawahiri, the current leader of al-Qaeda, 
released a statement specifically addressing Southeast Asian Muslims 
and encouraged sympathizers in the region to attack U.S. interests. 
With both al-Qaeda and ISIS seeking to recruit and radicalize in the 
region, the United States must be proactive in working with regional 
governments to counter the ideology and identify potential threats.
    Through today's hearing, we will hear from counterterrorism and 
regional experts about the current influence of ISIS in the region, 
efforts to address the threat, and what more the United States and 
allied nations should do to prevent this region from becoming a bigger 
source of fighters, funding, and operational plotting.
    Many are skeptical that the violent Islamist extremist groups in 
Southeast Asia could present a real threat to U.S. allies, interests, 
or the U.S. homeland. This is the same skepticism that ignored the 
threats from Yemen, Nigeria, and Libya until they had grown out of 
hand. While rightfully focusing on Syria and Iraq in our fight against 
ISIS, we should not ignore the growth of extremist activity and 
ideology in other parts of the world.
    I thank all of the witnesses for being here today and I recognize 
the Ranking Member for his opening statement.

    Mr. King. I thank all the witnesses for being here today. I 
will ask if you want to make an opening statement or should we 
wait for Brian and have him come in when he does it? Wait for 
Brian?
    I will go ahead with the witnesses. Okay. We will go ahead 
with the witnesses. When the Ranking Member arrives, his 
prerogative, he can make an opening statement. Other Members 
are reminded that statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 27, 2016
    I would also like to thank the witnesses for appearing to testify 
to examine terror groups operating in Southeast Asia and their 
allegiances to other terrorist groups such as the Islamic State and al-
Qaeda. These terrorist groups have a long history of seeking to exploit 
this region, which includes the nation with the highest population of 
Muslims.
    While most countries in Southeast Asia operate secular governments, 
terrorist groups continue to make progress at radicalizing and 
inspiring attacks.
    ISIL has stepped up its efforts to recruit in this area. While 
estimates vary, reportedly between 600-1,200 foreign fighters from 
Southeast Asia have traveled to Iraq and Syria to join ISIL.
    Earlier this year, Islamic militants attacked downtown Jakarta 
wounding at least 23 people and leaving 8 dead, including 3 civilians 
and 5 militants. ISIL claimed responsibility for the attack.
    In one of the most horrific attacks in Indonesian history, in 2002, 
a bombing in Bali killed over 200 people, most of them Western 
tourists.
    With assistance from the United States, Southeast Asia continues to 
make strides in its counterterrorism efforts. While we must encourage 
these countries' efforts to counter the spread of jihadist violence, we 
must also be concerned that some countries may use these efforts as a 
guise to suppress opposition.
    We must continue to promote the expansion of democratic ideals and 
principles in Southeast Asia while also weeding out the jihadist 
elements in these countries that seek to destroy these freedoms.
    The relatively small number of terrorist attacks in recent years is 
a testament to the effectiveness of the military and police 
counterterrorism efforts in these nations.
    Today, I look forward to hearing testimony about the evolving 
threat in these nations and how the countries are responding to counter 
this threat.

    Mr. King. What I would like to do now is introduce our 
witnesses. The first witness is Mr. John Watts, who is a 
nonresident senior fellow at the Atlantic Council Brent 
Scowcroft Center on International Security. Prior to joining 
the Atlantic Council, Mr. Watts was a staff officer at the 
Australian Department of Defense and an officer in the 
Australian Army Reserve. Mr. Watts holds a master's degree in 
international law from the Australian National University, and 
a BA in international studies from the University of Adelaide.
    Mr. Watts, you are the kick-off witness, and I recognize 
you.

 STATEMENT OF JOHN T. WATTS, NONRESIDENT SENIOR FELLOW, BRENT 
  SCOWCROFT CENTER ON INTERNATIONAL SECURITY, ATLANTIC COUNCIL

    Mr. Watts. Thank you, Chairman.
    Chairman King, distinguished Members of the subcommittee, I 
am grateful for this opportunity to talk to you about this 
important issue. From the start, Islamic State of Iraq and Al 
Sham, otherwise known as IS, ISIS, ISIL, or Daesh, has had a 
global ambition. Its long-stated goal is to endure and to 
expand. It has sought to find fertile new safe havens and high-
profile targets to attack.
    In Iraq and Syria, ISIS is under siege on multiple fronts. 
In recent months, it has suffered a number of high-profile 
defeats and has given up substantial amounts of land to its 
various adversaries. As ISIS is squeezed within its self-
proclaimed caliphate, the importance of finding new safe havens 
and new targets increases in order to escape allied bombing 
campaigns and to reinforce its narrative of success.
    The recent bold attack by ISIS-aligned terrorists in 
Jakarta along with indications of additional planning 
activities in the Philippines, Malaysia, and Thailand, appear 
to indicate an increased interest of success by ISIS in 
establishing itself there. The calibrating the level of threat 
that they pose requires consideration of a number of factors 
both encouraging and concerning.
    Southeast Asia is an attractive target for ISIS ambitions 
due to large Muslim populations, history of terrorist 
activities, and a long-standing desire by groups there to 
establish a Southeast Asian caliphate. There is a precedent for 
this. Darul Islam was an Islamic insurgent movement that grew 
during World War II in opposition of Dutch rule. Following the 
Declaration of Independence in 1949, it found itself at odds 
with the new Indonesian Government and used the political 
instability and weak governance at times to grow in influence.
    By the late 1950s, it controlled extensive territory in 
West Java, South Sulawesi, and Aceh provinces. Following a 
failed assassination attempt on the president, the Indonesian 
Government cracked down on the group. By the late 1960s, it had 
been effectively destroyed. The remaining elements of the group 
scattered across Southeast Asia and went underground.
    In the 1990s, remnants of that group developed into another 
with similar goals known as Jemaah Islamiyah. JI was formed as 
a transnational network across Southeast Asia and sent soldiers 
to Afghanistan to train.
    Following the forced resignation in 1998 of Indonesia's 
second authoritarian President Suharto, JI fighters returned to 
Indonesia and used the, again, weak instability, the political 
instability and weak government to emerge and to renew 
insurgencies across several provinces, and to conduct high-
profile attacks, including the Bali bombings in 2002 and 2005, 
the Jakarta bombings of the Australian Embassy in 2004, and 
several international hotels in 2005 and 2009.
    Following the first Bali bombing, the government cracked 
down on the group, and after a series of high-profile 
operations, many of its leaders were killed or captured with a 
group remaining as a degraded form today.
    The legacies of these groups are an important element in 
examining the terrorism in Southeast Asia today. As with DI, 
key leaders or veterans of JI went to ground and are now 
emerging as central players in the current evolution of the 
militant groups. It is also worth noting that those areas once 
controlled by DI harbored lingering Islamic movements seeking 
autonomy, which have on occasion broken out into open 
insurgency.
    ISIS has been targeting Southeast Asia aggressively with 
media messaging for some time, and local language has been 
styled to appeal to the populations. For some segments of the 
population, this has been a clarion call. A number of groups 
have sworn allegiance and there have been thousands who 
declared their support at public rallies. There are 
approximately 3,000 pro-ISIS websites in Southeast Asia with 
more than 70 percent coming from Indonesia. As you mentioned 
yourself, Chairman, there are approximately 700 Indonesians who 
have traveled to Syria and Iraq to fight, which is nearly 
doubled that 400 that traveled to Afghanistan in the 1990s.
    We need to keep these numbers in context, though. Seven 
hundred out of an Indonesian population of 250 million is 
minuscule. The numbers of people traveling from Malaysia are 
about on par with Australia, despite having much larger Muslim 
population. The vast majority of Southeast Asian populations 
reject Islamic extremism and groups such as Nahdlatul Ulama, 
which have 50 million supporters, preach the inclusive version 
of Islam that emphasizes tolerance and rejects ISIS rhetoric. 
In fact, some Indonesian jihadist groups have rejected ISIS 
because of its brutality and called it un-Islamic.
    Globally, the areas and populations ISIS has been 
successful in attracting recruits, some face either economic 
hardship, weak political governments, authoritative leaders, 
and/or persecuted minorities, or a combination thereof. In 
Southeast Asia, these conditions are no longer readily 
apparent.
    Southeast Asian populations live in generally stable, well-
governed, and prosperous nations, and are not as oppressed or 
politically disempowered as Muslim populations in other parts 
of the world. While some still struggle with poverty, economic 
opportunity, corruption, and adequate infrastructure, the 
region is broadly prosperous, and most people are experiencing 
improving economic conditions.
    The final reason for remaining optimistic about the attacks 
was that the Jakarta bombings were amateur in nature. The 
training and weapons used were poor, and the effect was very 
limited with more insurgents dying than victims.
    I am out of time. I can continue if you would like wrap-up?
    Mr. King. Yes.
    Mr. Watts. While Southeast Asian law enforcement is also 
highly effective at targeting groups following the Bali 
bombings in 2002, the campaign by the Indonesian police killed 
over 50 militants and arrested over 500 and the group, Jemaah 
Islamiyah, is a shadow of its former self.
    That being said, there are some concerns that we still need 
to be aware of. Despite the fact that they are broadly 
effective, the recent attacks as well as the bombing in 
Thailand at the Erawan Shrine, show that terrorist attacks can 
and will continue to happen, and no police force is 100 percent 
effective at stopping them all.
    Moreover, while the groups have sworn allegiance to ISIS, 
do not currently have the capability or possibly intent to ban 
together and strike on a national level. If ISIS reprioritizes 
its strategy and looks at its current situation, it may 
reprioritize the effort and the resources it puts into 
Southeast Asia, and that threat scenario can change rapidly.
    Sources from Syria and Iraq have indicated there is 
currently a split between various ISIS leadership factions as 
to whether they should prioritize, retain their current 
territory at all cost or devolve into a decentralized 
international terrorist organization.
    If it does the latter, the likelihood of increased 
resources flowing to Southeast Asia could raise quickly. As 
modern intolerant Muslim majority countries, Malaysia, Burma, 
and Indonesia are of great symbolic importance to ISIS, because 
they repudiate the extremist rhetoric they espouse by 
demonstrating a better alternative to it.
    The success of Southeast Asian societies are antithetical 
to the apocalyptic and sectarian message ISIS promotes. Muslim 
majority countries are an important target--particularly 
Indonesia is the Muslim majority country, but their appeal 
there has been extremely limited and remains on the absolute 
fringe of the already fringed jihadist population.
    Thank you for this opportunity to testify.
    [The prepared statement of Mr. Watts follows:]
                  Prepared Statement of John T. Watts
                             April 27, 2016
    Chairman King, Subcommittee Ranking Member Higgins, Full Committee 
Ranking Member Thompson, distinguished Members of the subcommittee, I 
am grateful for this opportunity to testify today on this important 
issue.
    From the start, the Islamic State of Iraq and Al Sham, otherwise 
known as IS, ISIS, ISIL, or Dae'sh, has had global ambitions. It has 
long stated its goal is to endure and expand. It has sought to find 
fertile new safe havens and high-profile targets to attack for a long 
period of time and has committed resources to achieving that outcome, 
targeting various populations around the world with its powerful 
messaging.
    In Iraq and Syria, ISIS is under siege on multiple fronts. In 
recent months it has suffered a number of high-profile defeats and has 
given up substantial amounts of land to its various adversaries.\1\ As 
ISIS is squeezed within its self-proclaimed caliphate, the importance 
of finding new safe havens and new targets increases, in order to 
escape allied bombing campaigns and to reinforce the narrative of 
success.
---------------------------------------------------------------------------
    \1\ Liz Sly, ``In Syria and Iraq, the Islamic State is in retreat 
on multiple fronts'' for The Washington Post, March 24, 2016, accessed 
at https://www.washingtonpost.com/world/middle-east/in-syria-and-iraq-
the-islamic-state-is-in-retreat-on-multiple-fronts/2016/03/24/a0e33774-
f101-11e5-a2a3-d4e9697917d1_story.html.
---------------------------------------------------------------------------
    South-East Asia (SE Asia) is a tempting prize for ISIS, and the 
possibility of them gaining a stronghold there is deeply concerning. SE 
Asia is home to large Muslim populations, including the world's largest 
Muslim-majority country: Indonesia. The region also has a history of 
Islamic-motivated insurgencies, terrorist attacks, and for a time a 
declared caliphate.
    The recent bold attack by ISIS-aligned terrorists in Jakarta, along 
with indications of additional planning activity in the Philippines, 
Malaysia, and Thailand, appear to indicate an increase in interest and 
success by ISIS in establishing itself there. Calibrating the level of 
threat that they pose requires consideration of a number of factors, 
both encouraging and concerning. My testimony today is separated into 4 
parts: First I will present some broad history and context of the roots 
of modern terrorism in SE Asia. Then I will present several reasons for 
why the nature of the SE Asian region will limit ISIS' success there, 
followed several reasons to be concerned. Finally I will provide an 
assessment of how we should balance those opposing factors.
                          history and context
    As stated above, ISIS has been open about its ambition to expand 
its reach globally. SE Asia is an attractive target for ISIS ambitions 
due to the large Muslim populations, history of terrorist activity and 
a long-standing desire by groups in the region to establish a SE Asian 
caliphate. Indeed, for a time a caliphate was declared over territory 
seized by Islamic militants from the group Darul Islam (DI).
    DI was an Islamic insurgent movement that grew during World War II 
in opposition to Dutch rule in Indonesia. Following the declaration of 
Independence in 1949, DI found itself at odds with the new Indonesian 
government and used the political instability and weak governance of 
the time to grow in influence. By the late 1950's, DI controlled 
extensive territory in West Java, South Sulawesi, and Aceh provinces 
and declared the establishment of an Islamic State of Indonesia.
    Following an attempted assassination attempt on Indonesia's first 
president, Sukarno, the Indonesian Government cracked down on the 
group. By the late 1960s, the group had been effectively destroyed, but 
remaining elements went underground and scattered to other SE Asian 
countries. These remnants sought to carry out small terrorist attacks--
often against religious targets--and retained a dream of establishing a 
true caliphate across SE Asia.\2\
---------------------------------------------------------------------------
    \2\ Fanscisco Galamas, Terrorism in Indonesia: An Overview, for 
Instituto Espanol de Estudios Estrategicos, Research Paper 04/2015, 
accessed at http://www.ieee.es/en/Galerias/fichero/docs_investig/2015/
DIEEEINV04-2015_Terrorismo_en_Indonesia_FcoGalamas_- ENGLISH.pdf.
---------------------------------------------------------------------------
    In the 1990's, remnants of that movement developed into another 
group with similar goals, known as Jemaah Islamiyah or JI. JI formed a 
transnational network across SE Asia, and sent fighters to camps in 
Afghanistan. Following the forced resignation in 1998 of Indonesia's 
second authoritarian President, Suharto, JI fighters returned to 
Indonesia and renewed insurgencies in several provinces and plotted 
major terrorist attacks. JI was responsible for a number of high-
profile terrorist attacks across SE Asia, including the Bali Bombings 
in 2002 and 2005, and in Jakarta the bombing of the Australian Embassy 
in 2004 and several international hotels in 2005 and 2009. Following 
the first Bali Bombing, the Indonesia Government once again cracked 
down on the militants, and after a series of high-profile operations, 
many of its leaders were killed or captured with little of the group 
remaining today.
    The legacy of these groups are an important element of an 
examination of terrorism in SE Asia today. As with DI, key leaders and 
veterans of JI went to ground, and are now reemerging as central 
players in the current evolution of militant groups. It is also worth 
noting that those areas once controlled by DI harbor lingering Islamic 
movements seeking autonomy, which have on occasion broken out into open 
insurgency or religious violence.
    On the morning of Thursday, 14 January 2016, a suicide bomber 
detonated his charge in a Starbucks coffee house in downtown Jakarta. 
Gunmen then seized civilians in the street outside and engaged in a 
firefight with police, throwing several home-made grenades and firing 
assault rifles. The attack ended with 4 civilian deaths, 23 injured and 
the killing of 5 terrorist attackers. The style of attack differed from 
previous terrorist incidents in Indonesia, which often involved 
targeting of buildings frequented by foreigners with sophisticated car 
bombs. In the early 2000s, religious buildings and symbols such as 
churches were often a focal point of violence, while more recently 
attackers have gone after Indonesian police and authorities. This 
assault clearly sought to imitate the Paris attacks, but were 
ineffective and amateurish. Nonetheless, they were bold and brazen, and 
show a degree of sophistication in planning and coordination, and would 
have required substantial local support and networks to execute.
    With a new terrorist threat emerging at the same time that foreign 
fighters are travelling to and returning from an overseas jihadist 
battleground, there are worrying echoes of JI's rise in the early 
2000s. To understand the implications of this attack, it is necessary 
to consider how ISIS has gone about expanding its global reach.
    ISIS achieves this goal through several means. In Iraq and Syria, 
their forces infiltrated governments and societies, and brought them 
down from the inside when the time was right. This approach has been 
highly successful in weakly-governed regions, and ISIS has sought to 
destabilize some areas in order to create the conditions for their 
success. Beyond their immediate area of interest, however, ISIS has 
expanded predominately by accepting the allegiance of local groups 
seeking to align with the most successful jihadi brand. This approach 
can be seen occurring in SE Asia with the likes of the Abu Sayyaf Group 
(ASG) in the Southern Philippines: An Islamic group that has sworn 
allegiance to ISIS, but whose fight for autonomy is decades old and the 
alignment with the current terrorist super group is likely a pragmatic 
move as much as ideological one.
    ISIS has been able to directly support terrorist attacks using 
returned foreign fighters in areas that can be easily travelled to from 
their main area of operations--in particular Europe and North Africa. 
Attacks that have been attributed to ISIS in more distant locations, 
such as the United States and Australia, have generally been conducted 
by ``self-starter'' lone wolves--individuals or small groups inspired 
by ISIS rhetoric but lacking in direct support or training.
    SE Asia has been an objective for ISIS for some time, aggressively 
targeting the region with media and messaging developed in local 
languages and style to appeal to SE Asian populations. There are some 
segments of the population for whom this has been a clarion call. A 
number of groups in the region have sworn allegiance to ISIS and there 
have been public rallies where thousands have declared their support 
for the terrorist group. There are approximately 3,000 pro-ISIS 
websites in SE Asia, with more than 70% coming from Indonesia. 
Worryingly there are reportedly 700 Indonesians who have travelled to 
Syria and Iraq to fight with ISIS, nearly double the 400 that travelled 
to Afghanistan in the 1990s. There are also reportedly around 100 
Malaysian and 100 Fillipinos, enough to form a SE Asian battalion 
there, known as Katibah Nusantara.\3\ While there are some indications 
these numbers may be inflated, there have also been several hundred who 
have been detained before they could leave their home country. It can 
also be assumed that there are even more individuals and groups with a 
broad sympathy to the goal of reestablishing a caliphate in SE Asia, 
even if they don't completely agree with ISIS' methods.
---------------------------------------------------------------------------
    \3\ The Soufan Group, Foreign Fighters: An Updated Assessment of 
the Flow of Foreign Fighters into Syria and Iraq, December 2015, 
accessed at http://soufangroup.com/wp-content/uploads/2015/12/
TSG_ForeignFightersUpdate3.pdf.
---------------------------------------------------------------------------
                          reasons for optimism
    The parallels with the emergence of JI and signs that ISIS is 
gaining some traction amongst local populations are concerning, but 
there are several reasons why the situation today is very different to 
what it was a few decades ago. First of all it is important to 
contextualize the numbers. Seven hundred people out of a population of 
250 million is miniscule, and the numbers of people travelling from 
Malaysia are about on par with Australia, despite it having a much 
larger Muslim population.
    The vast majority of SE Asian populations reject Islamic extremism. 
Following the January attacks in Jakarta, Indonesians took to twitter, 
trending the hashtag #KamiTidakTakut (we are not afraid). Islamic 
organizations such as Nahdlatul Ulama (NU), which has 50 million 
supporters, preaches an inclusive version of Islam that emphasizes 
tolerance and rejects ISIS rhetoric.\4\ Islamic organizations that have 
pledged support to ISIS have elicited a backlash from community leaders 
and even some fellow jihadist groups have rejected ISIS as un-Islamic 
on account of its brutality. This indicates that despite targeted 
messaging and a legacy that would seem to align with many of ISIS' 
objectives, they are unlikely to attract broad support.
---------------------------------------------------------------------------
    \4\ Joe Cochrane, ``From Indonesia, a Muslim Challenge to the 
Ideology of the Islamic State'' in The New York Times, Nov 26, 2015, 
accessed at http://www.nytimes.com/2015/11/27/world/asia/indonesia-
islam-nahdlatul-ulama.html.
---------------------------------------------------------------------------
    Globally, the areas and populations that ISIS has been successful 
in attracting recruits and support from are facing economic hardship, 
weak political governance, authoritative leaders, persecuted 
minorities, or a combination thereof. In SE Asia, these conditions are 
no longer readily present. There are several persecuted Muslim 
minorities as well as authoritative governments, such as in Myanmar and 
to a lesser degree Thailand. But the Philippines, Malaysia, and 
Indonesia are inclusive and tolerant democracies with avenues available 
to achieving political aims, particularly in the latter two. Indeed, 
Islamic parties have been formed in Indonesia, but have only been able 
to achieve very limited support. SE Asian populations live in generally 
stable, well-governed, prosperous societies and are not as oppressed or 
politically disempowered as Muslim populations in other parts of the 
world. And while some areas in SE Asia still struggle with poverty, 
economic opportunity, corruption and inadequate infrastructure, the 
region broadly prosperous and most people are experiencing improving 
economic conditions. ISIS' message therefore has limited appeal to 
them.
    As an example of how the region has changed, it is worth comparing 
the Indonesia of 20 years ago with today. Then it was suffering the 
effects of near-economic collapse following the Asian Banking Crisis. 
Separatist insurgencies and violence had flared in a number of 
provinces, including in Aceh, West Papua, Central Sulawesi and East 
Timor, the latter of which would go on to be granted independence. The 
forced resignation of Indonesia's second president, Suharto, marked the 
end of nearly 50 years of authoritarian rule. Today, the recent 
election of President Joko Widodo, commonly known as Jokowi, is a 
watershed moment as he represents the first democratically-elected 
leader from outside the political establishment. Indonesia's economy 
has slowed recently, the poverty rate has fallen from 18% a decade ago 
to 11% today, and GDP per capita has more than doubled in the same 
period. Inequality and development of rural areas are still problematic 
and the benefits are not evenly spread, but the World Bank predicts 
5.1% economic growth this year, up from 4.8% last year.\5\ While it 
still has areas for improvement, Indonesia is trending in a positive 
direction.
---------------------------------------------------------------------------
    \5\ World Bank, Indonesia, accessed on April 22, 2016 at http://
data.worldbank.org/country/indonesia#cp_fin.
---------------------------------------------------------------------------
    Another reason for optimism in the region is the competence and 
capability of the police and military forces there. In Indonesia, for 
example, during the decade following the first Bali bombings police 
operations killed over 50 and arrested over 500 terror suspects, 
including key leaders and bomb-makers. Their response to militants is 
led by their counter terrorism force, Detachment 88. Set up after the 
shock of the Bali bombings, Detachment 88 is a specially-trained 
counter-terrorism team that receives support and training from the 
United States and Australia. These operations have degraded Jemaah 
Islamiyah and prevented any high-profile attacks between 2009 and 2016. 
It's important to note, however, that Indonesia's success in countering 
terrorism isn't a result of just its offensive law enforcement 
capabilities, but also extensive intelligence networks, field craft and 
turning militants into informants through rehabilitation and community 
outreach programs.
    The final reason for remaining optimistic about the current ISIS 
threat in SE Asia is that their only known attack was highly 
ineffective. On the one hand, a coordinated attack such as that takes 
significant support networks and resources to execute. And the brazen 
nature of it--attacking downtown in broad daylight--differentiates this 
group from others that have sworn allegiance to ISIS, such as Mujahidin 
Indonesia Timur (MIT) and Jemaah Anshorut Tauhid (JAT) who appear to 
lack the capacity for similar attacks and are limited to local targets 
in regional areas.\6\ Despite the support, planning, and coordination 
necessary to stage such a bold attack, the ultimate effect was limited. 
The number of injured was substantial, but more attackers died than 
victims. The attack was amateurish and the training and weapons appear 
to be poor. For the attack to have had such limited impact it can be 
assumed that those involved lacked training and resources.
---------------------------------------------------------------------------
    \6\ Thomas Murphy, When IS is not IS: Terrorism in Indonesia, 
Australian Institute of International Affairs, March 1, 2016, accessed 
at http://www.internationalaffairs.org.au/australian_outlook/when-is-
is-not-is-terrorism-in-indonesia/.
---------------------------------------------------------------------------
                          reasons for concern
    There are nonetheless a number of reasons that the prospect of an 
emergent ISIS cell in SE Asia is of concern. While the Jakarta attack 
was amateurish and ineffective, ISIS has shown itself to be a learning 
organization that can adapt and improve over time. The European cell 
behind the devastating attacks in Paris and Belgium had previously 
experienced several failures from which it learned and improved. While 
the Indonesian police arrested a dozen people following the January 
attack, it is likely that there is a still larger network that could 
learn from the experience and improve in the future. As foreign 
fighters return from Iraq and Syria, they may bring know-how and 
experience with them.
    While SE Asian law enforcement agencies are broadly effective, the 
recent Jakarta attacks and the August 2015 bombing in Thailand at the 
Erawan Shrine, which killed 20 people, are reminders that terrorism can 
still strike across the region. No police force can stop every attack. 
Considering the long history of terrorism in the region, any signs of a 
reemerging trend is cause for concern. It remains to be seen if these 
incidents were outliers or indicate deeper failures within the 
respective forces.
    As noted earlier, with a few exceptions SE Asian nations are 
relatively prosperous, politically stable with tolerant and moderate 
societies. As such, the potential for ISIS to apply the approaches that 
have worked for it in the Middle East are unlikely to work in SE Asia. 
They are unlikely to be able effectively infiltrate government agencies 
en masse, attract large sections of the population, or sufficiently 
destabilize governments to create political vacuums. The threat of 
large pieces of territory falling to ISIS is very low. But there are 
still remote areas, including some with sympathetic local populations, 
which could be used to create bases and training camps which would pose 
a significant threat to regional security. The likelihood of an 
insurgency reemerging is far lower than in the past, but local 
outbreaks of violence are possible.
    Moreover, while the groups that have sworn allegiance to ISIS do 
not currently have the capability, or possibly even the intent, to band 
together and strike on a national level, an influx of resources could 
quickly change that threat scenario. Groups like Ansharud Daulad 
Islamiyah (ADI), which has a presence across several provinces in 
Indonesia, and the Ahlus Shura Council in the Philippines, see 
themselves as the beginnings of a SE Asian Islamic State, even if they 
do not yet control any territory.\7\ Many of the armed groups in the 
region are motivated primarily by specific political goals or for 
financial gain. There are various other insurgent and secessionist 
groups throughout the region of various ethnic and religious 
composition. The region comprises numerous different ethno-linguistic 
group, and many grievances of individual groups directly relate to 
their specific circumstances and political grievances. Nonetheless, 
there are sufficient numbers of groups that could align with ISIS' 
ideology and in any case we have seen that ISIS can be highly pragmatic 
in creating alliances. It is plausible that they could reach a mutually 
beneficial arrangement with unaffiliated groups that do not share its 
ideology in order to achieve mutually beneficial objectives if the need 
arose.
---------------------------------------------------------------------------
    \7\ Navhat Nuraniyah, ``More than a Fan Club'', for Inside 
Indonesia, Oct-Dec 2015, accessed at http://www.insideindonesia.org/
more-than-a-fanclub.
---------------------------------------------------------------------------
    Sources from Syria and Iraq have indicated that there is currently 
a split between various ISIS leadership factions as to whether they 
should prioritize retaining their current territory at all costs, or to 
devolve into a decentralized international terrorist organization. 
Whichever way the group goes, a push into SE Asia could be 
reprioritized and become a focal point for their plans: Either as the 
target of more attacks or in an attempt to seize territory outside the 
Middle East. While ISIS-aligned groups may not currently be 
sufficiently resourced to pose a significant threat, if SE Asia became 
a high priority for ISIS they may find that they have as many resources 
as they want. There are indications that this is already underway, some 
analysts believe that ISIS is determined to establish a foothold in SE 
Asia this year, most likely in Mindanao in the Philippines or Sulawesi 
in Indonesia.\8\
---------------------------------------------------------------------------
    \8\ Rohan Gunaratna, ``ISIS in Philippines a Threat to Region'' in 
The Strait Times, Jan. 12, 2016, accessed at http://
www.straitstimes.com/opinion/isis-in-philippines-a-threat-to-region.
---------------------------------------------------------------------------
    As moderate and tolerant Muslim-majority countries, Malaysia, 
Brunei, and Indonesia are of great symbolic importance to ISIS because 
they repudiate the extremist rhetoric they espouse by demonstrating a 
better alternative to it. The success of SE Asian societies are 
antithetical to the apocalyptic and sectarian message that ISIS 
promotes. Muslim majority countries are an important target, and 
Indonesia in particular has special symbolic meaning as the largest 
Muslim-majority nation in the world.
    The final cause for concern is the size of the population. While we 
have seen that there is only a fraction of the population sympathetic 
to ISIS' cause, in such a populous region, even a small fraction could 
represent a significant number of people. Moreover, while the numbers 
of people in the region that are currently suspected to be linked to 
ISIS is minuscule, recent history has made it clear that it does not 
require a large group of people to create a tragic and far reaching 
effect. Those few who have been swayed by ISIS' appeal are likely to be 
the most hard-core fringe of the existing fringe elements of society 
with jihadist leanings.
                               assessment
    Several recent terrorist attacks have reminded us of the threat the 
region has faced from Islamic extremists in the past. That one of them 
was clearly connected to ISIS, and with indications that several other 
plots were being planned, these fears are justified. The possibility of 
an ISIS foothold in one of the most populous and dynamic regions of the 
world is deeply concerning. The region's history of insurgency and 
political instability and the success of ISIS in expanding its brand 
globally give these fears credibility.
    However, the moderate and tolerant societies of SE Asia have 
broadly rejected the ISIS ideology and its brutal methodology, and have 
shown that they are resistant to its messaging. While there remains 
some areas of concern, the region is sufficiently tolerant, politically 
stable and prosperous that it is unlikely that insurgencies will re-
emerge in a wide-spread manner, even in remote areas. In fact, the 
region provides a great case study of how a moderate and inclusive 
approach can benefit all groups within a society, and should be held up 
as an example for other regions to aspire to. Many of the countries in 
the region have done this through quiet competence, empowering their 
populations and looking to develop on their own terms in their own way. 
The United States and its allies have played a role in supporting the 
countries within the region in achieving that, and we should continue 
to do so while identifying lessons to apply elsewhere.
    As ISIS is pressed within the confines of its self-declared 
caliphate, it is having to reconsider its priorities and strategy. 
While it is unlikely to be defeated in the near term, the organization 
is reacting to this pressure by seeking to open new fronts and strike 
at soft targets further afield to maintain their narrative of success. 
While ISIS has long sought to generate a presence in SE Asia, its 
investment to date has been modest and relatively ineffectual. The 
change in its circumstances may change their calculus and see them 
increase the resources they commit to their SE Asian affiliates. Among 
other setbacks, ISIS no longer has the ability to generate revenue in 
the way it has in the past, and there are signs that financial 
constraints are impacting their ability to fund their operations. It 
would be dangerous, however, to underestimate their capabilities, and 
if SE Asia increases in priority it is possible that the embryonic 
cells there may receive sufficient resources to become a significant 
threat. SE Asia, and in particular Indonesia, is an attractive target 
for ISIS, and it likely that they will continue to pursue their 
objectives there.
    Moreover, one of the greatest threats that ISIS poses is 
inspiration to lone wolves and self-starter terrorist groups. While the 
currently-identified terror threats in the region may not pose a 
significant risk, there is always the possibility of a new one 
emerging. We have seen how difficult it is, even in Western nations, to 
stop self-motivated lone-wolf attackers.
    It is therefore likely that there will be more terrorist attacks in 
SE Asia in the future. Whether they are funded by ISIS, inspired by 
them, or indeed motivated by a completely separate political 
grievances. The regional law enforcement agencies understand the 
threats they face and are proactively seeking to diffuse them, but they 
will be unlikely to stop them all. At present, few of the extant 
militant groups have the capacity to undertake a significant attack, 
and there are rifts between the key jihadists. Many jihadist groups in 
Indonesia have actually rejected ISIS out of repugnance for their 
brutal tactics. But while many of the groups are primarily motivated by 
local grievances, those who have aligned themselves with ISIS are true 
believers who have been directly inspired by the global movement beyond 
any local considerations.\9\ These individuals are highly motivated to 
see an ISIS-linked SE Asian Islamic province realized. And while the 
percentage of individuals is exceptionally small, even the smallest 
fraction of such a large population is cause for concern.
---------------------------------------------------------------------------
    \9\ The Evolution of ISIS in Indonesia, Institute for Policy 
Analysis of Conflict, IPAC Report No. 13, September 24, 2014, accessed 
at http://file.understandingconflict.org/file/2014/09/
IPAC_13_Evolution_of_ISIS.pdf.
---------------------------------------------------------------------------
    I would like to thank the committee for holding a hearing on such 
an important topic. The threat of an emerging ISIS foothold in SE Asia 
is of great concern. But by providing opportunities such as this to 
examine the key issues in more depth we will be better placed to 
respond to it.

    Mr. King. Mr. Watts, thank you. Thank you very much for 
that.
    Our next witness, Mr. Patrick Skinner, is the director of 
special projects of the Soufan group. He is a former CIA case 
officer, specializing in counterterrorism issues. In addition, 
he has law enforcement experience with U.S. Air Marshals and 
U.S. Capitol Police as well as search and rescue experience in 
the U.S. Coast Guard.
    Thank you for your service, and thanks for being here 
today. Mr. Skinner.

STATEMENT OF PATRICK M. SKINNER, DIRECTOR OF SPECIAL PROJECTS, 
                        THE SOUFAN GROUP

    Mr. Skinner. Thank you for having me, Chairman King, other 
Members of the subcommittee.
    I will try to break it down into 2 threats. There is a long 
and well-deserved assumption that Southeast Asia is not fertile 
ground for extremism. As pointed out, 99.9 percent, the vast 
majority of people, reject that, but that is also true in a lot 
of places.
    There has been decades of extremism in the area. As you 
mentioned, there is a threat of terrorism that has run for 
decades, before Afghanistan, before 9/11, but continuing all 
the way through it. So when it comes to ISIS, particularly, I 
break it down into 2 threats. You have the threat of the 
foreign fighters. Again, 700 Indonesians, maybe 1,200 in total, 
50 Malaysians, those are wildly--I mean, those are really 
positive numbers per capita. I mean, compared to, like, Tunisia 
or Saudi Arabia. But as we have seen in Paris, it just takes a 
handful of people to come back and destabilize, especially when 
there is already political tensions and economic tensions not 
as severe but as always an undercurrent.
    So the difference between Paris, and the difference between 
Jakarta, so one killed 130, one killed 4 plus the attackers 
themselves, was training. It is not lack of opportunity. It is 
not lack of target. It is training.
    So there is a real concern. Now, everything with foreign 
fighters can always be either overhyped or downplayed, and so 
it is hard to split the difference, because it is such an 
unknowable. But it is certainly knowable that the difference 
between success and failure, between cartoonishly bad plot, 
that are still tragic, but they are not a national security 
incident, is training. ISIS has demonstrated the ability to--
though Syria has been a live-fire training ground for 3 years, 
for this group, and perhaps longer. As you have seen in the 
European Union, and will certainly see in Southeast Asia, the 
ability of governments to actually track extremist foreign 
fighters is widely overstated. Even in the most 
technologically-advanced countries, we are not tracking these 
people. You know, we are building this hindsight, after-the-
fact counterterrorism machine. So I think that it is--you 
should expect that some of these people who have left, not all 
want to come back, you know, to fight. Some just want to come 
back, because they are disillusioned, and that is a positive 
development, but there will be people that will come back, and 
I think that we have to presume that they will be undetected.
    Now, these services are really good. So that is one side to 
the threat is, not lone wolves, but you can look at them like 
that, the little small cells where people come back, and they 
know what they are doing, and that is a bad thing.
    Another issue, and it is also an unknowable, but we can 
begin to assume this might be the case, is that there are 
existing sanctuaries that Islamic State would love to plug in. 
There is no such thing as a clandestine caliphate. They need 
sanctuary. They actually need a place for these people to go to 
where they can say, this is where our flag is.
    Places like the southern Philippines are a really 
attractive option for them, because Abu Sayyaf has proven that 
they can be around for decades. They have proven that they can 
battle the Philippine police and the military at least to a 
standstill. So the danger is that you take these already lethal 
groups that are like parasites, that are plugged into the local 
economies with kidnapping, you know, for ransom, smuggling, 
extortion, and then you add the ISIS notoriety, you add their 
funding, perhaps, but you also add that lethality that these 
groups have but not on the Islamic State scale.
    So the concern is you have returning foreign fighters who 
will add a level of professionalism, if you want to use that 
word, to attacks. That is the difference between Brussels and 
Jakarta. Those are really big differences. One it is a local 
crime issue, another is you don't want too many of these 
attacks. But then the bigger threat is the instability of the 
regions. They are not going to get better immediately, and 
these places need help, especially in the Philippines. That is 
a military problem.
    So ISIS is going to try to plug into that. It is an open 
question, but it is likely that they will declare, like at 
least a wlilayah, a state there. They haven't done it yet. They 
have accepted Abu Sayyef on their, you know, the pledge of 
allegiance, but they haven't said, okay. We are going to have a 
wlilayah. If they do that, that is a clear sign that they are 
going to move hard into the region.
    Thank you.
    [The prepared statement of Mr. Skinner follows:]
                Prepared Statement of Patrick M. Skinner
                             April 27, 2016
    There is no longer any question as to if the Islamic State will 
attempt to establish some presence in Southeast Asia; the group has 
already done so and intends to do more. The larger and far more 
pressing question is how successful will it be applying its motto of 
``remaining and expanding'' in the region. Much like the overall issue 
of foreign fighters, the issue of the Islamic State's potential power 
projection in and from Southeast Asia is one prone to simultaneous and 
conflicting exaggeration and downplaying of the threat. Currently the 
extremist threat across several countries in the region is limited but 
it is growing.
    It will take concerted and thoughtful multi-national efforts to 
limit the threat to manageable levels. Action and support now will have 
significant returns on investment; the longer the problem festers, the 
more costly and less effective the corrective measures will be. The 
threat can be summed up as such: It is a trend line heading towards a 
fault line if not addressed. Failure to counter the threat and ideology 
of the Islamic State in Southeast Asia will have severe near-and-long-
term consequences.
    In terms of numbers of foreign fighters estimated to have traveled 
to Syria for extremist purposes, southeast Asia is a relative success 
story. The high end of estimates is that 1,000 people from the region 
have made the decision to travel. Other estimates suggest 600 to 700, 
with most of those coming from Indonesia. Malaysia and the Philippines 
each have seen perhaps 100 of their citizens go to Syria; Singapore 
reports just 2. Given the large population of the region, the overall 
and per capita numbers of foreign fighters are a positive indication of 
a region resistant to the the twisted Islamic extremism espoused by 
groups such as the Islamic State and al-Qaeda.
    The low numbers of people traveling to Syria also means a 
relatively low level of returnees, an issue that is a real concern 
world-wide and in Southeast Asia, given the damage a handful of trained 
fighters can do on a civilian population. The difference between the 
November 2015 Paris attacks that killed 130 and the January 2016 
Jakarta attack that killed 4 (plus the 4 attackers) was training. The 
risk of trained fighters slipping undetected into countries such as 
Indonesia, Malaysia, or the Philippines and plugging into existing 
extremist groups such as Abu Sayaf and serving as trainers and force 
multipliers is a real risk.
    The risk is greatest in Indonesia, Malaysia, and the Philippines, 
with the Philippines having the most severe persistent extremist threat 
in the form of Abu Sayaf. The group has pledged allegiance to Abu Bakr 
al-Baghdadi, a pledge accepted by the Islamic State. As the fortunes of 
the Islamic State worsen in Iraq and Syria, it is likely the group 
might announce a new state or wlilayah in Southeast Asia. The southern 
part of the Philippines, where the central government is unable to 
exert consistent control, would make an ideal sanctuary for the Islamic 
State.
    There have always been pockets of persistent and violent extremism 
in the region. Geography works against the central governments in the 
expansive island countries of Indonesia, Malaysia, and the Philippines. 
The arc of returning foreign fighters is a long one, with the 1980s and 
1990s fighters who returned from Afghanistan still creating problems 
with groups such as Abu Sayaf and Jemaah Islamiyah.
    The Islamic State has already worked its way into Southeast Asian 
criminal terror networks, as al-Qaeda had previously and continues to 
do so. Kidnapping, piracy, and smuggling provide much-needed consistent 
revenues for terrorist groups in the region. On April 25, 2016, 2 days 
ago, Philippine president Benigno Aquino III ordered the Armed Forces 
of the Philippines (AFP) to immediately conduct operations to reduce 4 
hostages taken by Abu Sayaf in September 2015. The order came as the 
deadline for ransom had passed. Along with Abu Sayaf, smaller extremist 
groups Ansar al-Khilafah, Katibat Marakah al-Ansar, and Katibat Ansar 
al-Sharia have also pledged allegiance to the Islamic State.
    While the region has a well-deserved reputation and reality for 
being resistant to religious extremism, that resistance is being 
severely tested. Concerns over wahhabist mosques and madrassas 
continue, particularly in Malaysia. The long-held assumption that 
Southeast Asia isn't ``fertile ground'' for religious extremism is less 
true now than ever. Malaysia has begun to crack down on what it calls 
extremist mosques, but the scope of the problem is rather large given 
the 30-year effort, funded by Gulf countries such as Saudi Arabia, to 
spread wahhabism in the region. Vulnerable communities already 
disaffected from the central government can be coated in this 
``kerosene of intolerance'' from extremist mosques, needing the 
smallest spark to ignite into sustained extremism against anyone 
perceived as different or threatening.
    Furthermore, the Islamic State has shown it doesn't need ``fertile 
ground'' to thrive; like a weed it simply needs to take root anywhere 
and then spread. Places outside the government's effective control, 
which exist in Malaysia, Indonesia, and the Philippines, are more than 
enough for the group to settle in and then work its way into the major 
cities. There will be several indications when this process begins in 
earnest.
    First, attacks will increase in both frequency and lethality. These 
attacks will more resemble Paris than Jakarta, unfortunately, as the 
value of combat training and terror sanctuary become evident. The 
successes in the region over the last 15 years in combating terrorism 
and reducing large terrorist attack were hard-earned and sadly will 
have to be re-earned again as the threat level rises to levels not seen 
previously due to the size and spread of the Islamic State.
    Second, there will be a slow building of pressure and then attacks 
against bloggers, authors, newspapers, and other voices that run 
counter to the ``us versus them'' ideology of bin-Ladenism. This is 
happening now in Bangladesh, where persistent political violence and 
gangs have merged with the extreme ideology of the Islamic State to 
create a deadly environment for anyone with a different viewpoint. 
Silencing other voices is crucial to the Islamic State's monopoly of 
message. Intimidating and assassinating people with platforms such as 
newspapers or websites is straight out of the extremist playbook. It 
will be a sign that governments have failed to adequately counter the 
threat if these types of crimes begin to pop up in Kuala Lumpur, 
Manila, or Jakarta. Once that begins, it is exceedingly difficult to 
break the pattern.
    Countering this threat now and for the long-term is a challenge 
with which the region will need substantial assistance from the United 
States and other countries. There are long-standing ties and liaison 
that have proven extremely effective and beneficial in addressing the 
threats of the past but that will need to be reassessed and likely 
increased to match the new reality. Militarily, the Philippines will 
continue to need help combatting Abu Sayaf and other extremist groups 
such as the Moro Islamic Liberation Front. Legally and politically, 
countries such as Indonesia and Malaysia are trying to balance civil 
rights with the increased need to detain people with extremist ties and 
intentions. Malaysia has arrested over 100 people on suspicion of ties 
to the Islamic State, and has enacted the Prevention of Terrorism Act 
(POTA) which increased the length of pre-trial detentions. Indonesia is 
considering similar legislation as well. It will be, as it is in every 
country, a delicate balance between liberty and security, with 
excessive legal persecution likely to lead to more of the behavior it 
was intended to prevent. Lastly, each country will need to increase its 
respective efforts at countering violent extremism both ideologically 
and socially. Singapore has been in the forefront of this, though its 
model will be difficult to scale for its much larger neighbors. 
Increased assistance from the United States in all 3 facets of the 
fight against the Islamic State in Southeast Asia is needed to help 
avoid much greater threats.

    Mr. King. Thank you, Mr. Skinner.
    Our next witness is Ms. Supna Zaidi Peery. Did I get that 
okay? You can correct me.
    Ms. Zaidi Peery. Zaidi Peery.
    Mr. King. Okay.
    She is an attorney and a strategic policy analyst at the 
Counter Extremist Project, a not-for-profit, nonpartisan, 
international policy organization that combats the growing 
threats from extremist ideology. Ms. Peery's areas of expertise 
include the roots of extremist, foreign policy, human rights, 
immigration, and development issues.
    She previously worked policy and intelligence analysis for 
the banking sector in New York City. Ms. Peery has written 
extensively on foreign policy, human rights, and religion for 
more than a decade.
    We welcome you today, and thank you for appearing. You are 
recognized.

   STATEMENT OF SUPNA ZAIDI PEERY, RESEARCH ANALYST, COUNTER 
                       EXTREMISM PROJECT

    Ms. Zaidi Peery. Thank you. Chairman King, Ranking Member 
Higgins, and Members of the subcommittee, I appreciate the 
opportunity to appear before you today.
    ISIS' position is to increase its threat to the United 
States and our allies in Southeast Asia by collaborating with 
local militant groups. In response, regional governments should 
aggressively seek out preventive policies to combat violent and 
nonviolent Islamist activity in the region. These policies 
should include an aggressive push against the proliferation of 
Islamist propaganda on-line especially on social media. 
Concurrently, regional governments must support and amplify 
counter messaging spread by modern Muslim organizations like 
Sisters in Islam in Malaysia, and Nahdlatul Ulama in Indonesia, 
which Mr. Watts mentioned.
    Islamists, especially ISIS, skillfully manipulate regional 
and local problems and incorporate them into the Islamist 
message of global Muslim victimhood. Currently, there are more 
than 3,000 pro-ISIS websites in Southeast Asia. Approximately 
70 percent of these websites are hosted on servers in 
Indonesia. This is an issue that the Indonesian Government 
can't address with working with the private sector. Muslim 
youth can easily come into contact with this extremist rhetoric 
on-line and become vulnerable through radicalization.
    Nonviolent Islamist groups like Hizb ut-Tahrir and Islamist 
televangelist like Zakir Naik empower ISIS by similarly 
advocating for a caliphate to replace local governments. In 
Southeast Asia, Hizb ut-Tahrir events fill football stadiums by 
the thousands. Zakir Naik reaches millions through his cable 
station, the Peace Network and speaking engagements, which are 
later posted on-line.
    Earlier this month alone, Zakir Naik spoke at an event in 
Indonesia where he stated 9/11 was an inside job, among other 
questionable statements. The situation in Southeast Asia can be 
compared to the evolution of events in the United Kingdom where 
Islamist propagandist Anjem Choudary never reflected the views 
of the majority of Muslims in the United Kingdom, but the group 
he cofounded, al-Muhajiroun, is blamed by British law 
enforcement probably 50 percent terror plots in the United 
Kingdom from 1995 to 2015. Choudary's fringe status has not 
prevented him from undermining stability and security in Great 
Britain.
    Equally, extremist activity in Southeast Asia can 
dramatically and negatively impact the region in the future if 
it is not curbed now.
    In the Philippines, for example, militant group Abu Sayyaf 
pledge allegiance to ISIS in 2014 despite being considered 
primarily a criminal organization. It is possible that the 
affiliation benefit Abu Sayyaf by raising its stature, making 
its kidnap-for-ransom business a more serious threat to foreign 
governments, including the United States.
    Abu Sayyaf reportedly beheaded a Canadian hostage, John 
Ridsdel, this week who was working on a mining project in the 
Philippines and vacationing at the time of his kidnapping. Abu 
Sayyaf had demanded ransom, but and apparently did not receive 
it by the group's self-imposed deadline. Any support ISIS and 
Abu Sayyaf give each other raises a security risk to local 
governments in the region as well as to the United States, 
which ISIS identifies as a target through its on-line outlets.
    Moreover, ISIS affiliated extremists in Bangladesh, which 
borders the Southeast Asian country of Burma, killed 2 more 
advocates of secularism on April 23 and April 25 of this month, 
bringing the death toll of liberal writers in the country to 8 
since 2015. These victims do not include the foreigners and 
religious minorities that have also been targeted by Islamic 
extremist in Bangladesh in the last few years.
    Instability in Bangladesh has negative effects in Southeast 
Asia since extremists from Bangladesh have allegedly attempted 
to recruit from the Muslim Rohingya refugee population along 
the Burmese border. ISIS propaganda on various platforms play 
the images of starving Rohingya over and over again, striking 
deep emotional cord amongst some vulnerable Muslim youth around 
the world to do something to help their fellow Muslims. 
Jihadist recruitment preys upon these emotions. There are 
similarly videos and images played on ISIS platforms of the 
Syrian crisis, children, family, family suffering with no 
support from the outside.
    ISIS has targeted neighboring Malaysia as well. ISIS met 
multiple militant groups last fall in the Philippines to plan 
attacks to be committed in Malaysia. ISIS also has a presence 
in Indonesia where pro-ISIS militants attacked a Starbucks cafe 
in Jakarta killing 4 on January 14 of this year.
    Bahrun Naim is considered the brains behind the operation, 
and he is connected to ISIS propagandist Abu Jandal in Syria, 
and pro-ISIS ideologue Aman Abdulrahman. Abdulrahman has 
translated pro-ISIS propaganda from Arabic to Bahasa Indonesian 
on-line to help recruit jihadists.
    It should be important to note that ISIS propaganda 
includes multiple languages along multiple platforms to ensure 
that his message is, indeed, global.
    Thus, the activities of ISIS and local militant groups in 
Southeast Asia confirm that extremism is on the rise in the 
region. But, yet, it should still be pointed out, as my fellow 
witnesses have mentioned, the numbers of actual extremists are 
low. But if the United Kingdom is to serve as an example, more 
aggressive policies to challenge extremist rhetoric are 
critical to prevent extremism from spreading to the same level 
as in other parts of the globe in Southeast Asia in the future.
    Consequently, we at CEP recommend that regional governments 
create policies to work with the private sector to take down 
extremist propaganda. Second, local governments should replace 
the extremist rhetoric with moderate voices.
    Two examples out of many from the region include, Nahdlatul 
Ulama, which is an Indonesian clerical body that supports the 
indigenous and peaceful interpretation of Islam called 
Nusantara Islam. The Ulama represents approximately 40 to 50 
million members already. The Ulama has already denounced 
extremist rhetoric by ISIS using the hash tag, we are not 
afraid, as a social media campaign.
    A second moderate voice is the Wahid Institute, founded by 
Yenny Wahid, the daughter of former Indonesian president, 
Abdurrahman Wahid. She is quoted as saying, we are not just 
coming out with a counternarrative. We are coming up with a 
counteridentity, and that is what all of this is about. We 
believe we are good Muslims, but to be good Muslims, we don't 
have to accept the recipes that are handed out by some radicals 
from the Middle East.
    Raising such pluralist voices will not only challenge ISIS 
extremism but also marginalize separatist rhetoric espoused by 
groups like Hizb ut-Tahrir and individuals like Zakir Naik.
    To conclude, Southeast Asia has an opportunity now to 
respond properly to the growing extremist threat by addressing 
important identity issues and providing alternatives to the 
extremist messages turned out daily by ISIS and other Islamist 
groups; otherwise, the threat to the region, other countries, 
including the United States will only grow.
    Thank you.
    [The prepared statement of Ms. Zaidi Peery follows:]
                Prepared Statement of Supna Zaidi Peery
                             April 27, 2016
    Chairman King, Ranking Member Higgins, and Members of the 
subcommittee, I appreciate the opportunity to appear before you today 
to talk about the threat from ISIS in Southeast Asia. My name is Supna 
Zaidi Peery. I am a strategic policy analyst at the Counter Extremism 
Project, a not-for-profit, non-partisan, international policy 
organization that combats the growing threat from extremist ideology.
    ISIS could become a threat to the United States and its allies in 
Southeast Asia through its collaboration with local militant groups if 
regional governments do not aggressively seek out countervailing and 
preventative policies to combat violent and non-violent Islamist 
activity in the region. This includes an aggressive push against the 
proliferation of Islamist propaganda on-line, and on social media. 
Concurrently, regional governments must support and amplify counter 
messaging promulgated by moderate Muslim organizations like Sisters in 
Islam in Malaysia and Nahdlatul Ulema in Indonesia.
                               background
    Islamist extremism predates the arrival of ISIS in Southeast Asia. 
While the number of violent extremists in the region is currently low 
compared to the number in the Middle East and South Asia, ISIS, like 
other violent militant groups, and non-violent Islamist groups like 
Hizb ut-Tahrir, is skilled at manipulating regional and local problems 
and incorporating them into its Islamist message of global Muslim 
victimhood. This creates an environment where Muslim youth who come 
into contact with Islamist messaging on-line or in person become 
vulnerable to radicalization.
    The most glaring example of this problem in Southeast Asia is the 
Rohingya crisis on the Burma-Bangladesh border. The ethnic group's 
citizenship has been challenged by the government, which argues that 
the Rohingya are historically from Bangladesh, not indigenous to Burma. 
Consequently, without status it is difficult for the Rohingya to find 
work in Burma. Many attempt to flee, with some creating new lives in 
nearby countries like Malaysia. Other families, in the hundreds of 
thousands, fester at refugee camps on the border between Bangladesh and 
Burma.
    Pro-ISIS militants from Bangladesh have allegedly attempted to 
recruit men from these refugee camps. It is unclear if these recruiting 
attempts were part of a new strategy to expand extremist activity to 
Burma.
    ISIS has increased its profile and presence in Bangladesh as well 
in the last year, where increasingly aggressive domestic Islamist 
militant groups have killed foreigners, religious minorities, and 
secular bloggers.
    Technology enables extremist messaging that fuels radicalization, 
recruitment, and incitement to violence. There are more than 3,000 pro-
ISIS websites in Southeast Asia, and 70 percent of these websites are 
hosted on servers in Indonesia. These websites feature translations of 
ISIS ideology as well as YouTube channels, Twitter, and other platforms 
exploited by extremists.
    ISIS propaganda is strengthened by purported non-violent Islamist 
groups in Southeast Asia as well. Islamist messaging encourages a 
separatist and supremacist attitude among otherwise moderate Muslims. 
Thus, as the Hudson Institute states, purported non-violent Islamist 
groups like Hizb ut-Tahrir spread a mindset that jihadi recruiters can 
exploit to encourage militancy.
    Hizb ut-Tahrir is an Islamist movement founded in the Middle East 
that has chapters in more than 40 countries, including Malaysia and 
Indonesia. The group advocates an identical message to that of ISIS--
regime change in favor of a caliphate. Rather, than support 
indiscriminate violence to realize their vision, HT hopes to convert 
key figures in society--like the military--so a coup can bring about a 
peaceful change in government. HT events in Indonesia regularly attract 
more than 5,000 men, women, and children.
    Separately, so-called peaceful Islamist events host religious 
televangelists like Zakir Naik, who teaches a supremacist 
interpretation of Islam alien to Southeast Asia. His on-line presence, 
including YouTube channels, satellite, and cable television, has grown 
his network called ``Peace TV.'' The station and its 24/7 Islamic 
programming reach hundreds of millions of men and women around the 
world in numerous languages.
    On April 13, 2016, Naik spoke at an event in Indonesia attended by 
hundreds where a young woman asked how ``brothers'' could be killing 
each other. She was referring to the conspiracy that the majority of 9/
11 victims were Christian and the perpetrators were Muslim. Naik\1\ 
responded by stating that 9/11 was an inside job by perpetrated by the 
White House. His evidence included a documentary called ``Loose 
Change,'' a conspiracy-theory-inspired series produced between 2005 and 
2009.
---------------------------------------------------------------------------
    \1\ http://video.wapgrab.com/watch?v=p_iT0S_r_Ak.
---------------------------------------------------------------------------
    Naik also spoke in Malaysia. His topic of choice was a speech on 
why Islam is better than Hinduism. Fearing communal tensions, Naik's 
invitation was rescinded. The ban was lifted when he agreed to adjust 
his speech to ``Islam and Hinduism.''
    The propaganda spread by organizations like HT and individuals like 
Naik lays the effective groundwork for groups like ISIS and is just as 
dangerous. It chips away at the tolerant and pluralist societies that 
currently exist in Southeast Asia. Worse, once individuals are softened 
to a worldview setting Muslims apart and above all others, the 
radicalization of Muslim youth towards violence becomes more likely.
    The situation in Southeast Asia can be compared to the evolution of 
events in the United Kingdom. Propagandist Anjem Choudary by no means 
reflects the majority of Muslims in the United Kingdom. Yet, he is 
finally on trial now for his alleged support for ISIS in the United 
Kingdom, and has spent decades advocating for sharia law. Choudary is 
responsible for founding al-Muhajiroun \2\--which British law 
enforcement blames for at least 50 percent of terror plots in the 
United Kingdom from 1995 to 2015. Apparently, Choudary's fringe status 
did not prevent him from doing major harm in the United Kingdom.
---------------------------------------------------------------------------
    \2\ http://www.dailymail.co.uk/news/article-3007180/The-terror-
group-UK-s-terror-plots.html.
---------------------------------------------------------------------------
    Worse, the separatist ideology of Choudary, and his mentor, Omar 
Bakri Mohammad, who founded the London-based chapter of Hizb ut-Tahrir, 
may be responsible for the lack of integration in some Muslim 
communities in the United Kingdom.
                the current landscape in southeast asia
    Presently in Southeast Asia, militant Islamist groups are localized 
for now mainly in the Philippines, Malaysia, and Indonesia. In these 
locations, extremists have traditionally targeted their attacks on law 
enforcement and government, rarely attacking public spaces.
    However, ISIS' propaganda in the region increases the future risk 
for more indiscriminate acts of terrorism, as well as the targeting of 
foreigners, religious minorities, and U.S. interests. The Bali bombing, 
for example, was committed by the Indonesian militant group Jemaah 
Islamiyah, with the help of al-Qaeda, in retaliation for the U.S.-led 
Global War on Terror.
    In the past year, there have been indications of growing support in 
general for sharia among some Muslim communities in Southeast Asia, as 
well as growing support for ISIS. For example, the monarchy of Brunei 
instituted sharia law in 2013. Brunei is physically nestled on a small 
corner of a much larger Malaysian island. Cross-border influence is 
very possible.
    In 2015, a retailer in Malaysia selling pro-ISIS merchandise was 
finally shuttered, despite local law enforcement having knowledge of 
the items in the store, including ISIS flags, T-shirts marked with 
statements like ``Mujahideen cyberspace,'' and images of Kalashnikovs. 
The merchandise was produced in Indonesia.
    In December 2015, the BBC published photos of HT members protesting 
in front of American Mining Company Freeport, in central Jakarta. HT 
propaganda argues that allowing Western firms to extract Indonesian 
minerals is un-Islamic.
    Further anecdotal evidence indicates the influence of ISIS is 
growing in Indonesia. In February 2015, the BBC reported that students 
outside Jakarta declared their allegiance to ISIS. This was not an 
isolated incident, as other ISIS supporters have organized parades and 
demonstrations advocating ISIS' message in Indonesia as well.
                               indonesia
    A very small minority of Indonesians have sought an Islamic state 
since 1949, when the Darul Islam movement was formed.
    A new wave of radicalization emerged in the 1980s, with al-Qaeda 
spreading its extremist message, like ISIS today, to near and far-flung 
Muslim communities from its headquarters in the Middle East. Al-Qaeda 
has funded militancy, including training camps in Southeast Asia since.
    Jemaah Islamiyah (JI) \3\ made international headlines with 
bombings targeting tourists in Bali in 2002 and 2005, killing more than 
200 in each incident, but the group has a long and violent history 
spanning decades. JI is also known for its ties to the 1993 World Trade 
Center bombing, as well as the 1995 failed ``Bojinka'' plot, an attempt 
to bomb 12 U.S. commercial airliners in the span of 2 days.
---------------------------------------------------------------------------
    \3\ http://www.counterextremism.com/threat/jemaah-islamiyah-ji.
---------------------------------------------------------------------------
    Founded by Abu Bakar Bashir \4\ and Abdullah Sungkar to overthrow 
the secular Indonesian state through political disruption and violence, 
JI seeks to establish a regional caliphate that would encompass 
Indonesia, Malaysia, Mindanao (southern Philippines), southern 
Thailand, Singapore, and Brunei. Bashir pledged loyalty to ISIS in July 
2014, but the group also has links to al-Qaeda \5\ and the Abu Sayyaf 
Group (ASG), a Philippines-based terrorist organization.
---------------------------------------------------------------------------
    \4\ http://www.counterextremism.com/extremists/abu-bakar-bashir.
    \5\ http://www.counterextremism.com/threat/al-qaeda.
---------------------------------------------------------------------------
    ISIS propaganda and networking between Southeast Asian militants 
serving in Syria and those at home in Malaysia and Indonesia has 
created a nascent but powerful network supporting extremism from the 
Middle East to South Asia.
    This was best illustrated on January 14, 2016, when pro-ISIS 
militants attacked a Starbucks cafe in Jakarta, killing 4 innocent 
people. The pro-ISIS militant responsible for the attack is Bahrun 
Naim. He is believed to be connected to ISIS propagandist Abu Jandal in 
Syria and pro-ISIS ideologue Aman Abdulrahman, who is currently behind 
bars in a maximum security prison in Java, Indonesia.
    Abu Jandal is one of many Twitter propagandists CEP monitors and 
has repeatedly tried to force Twitter to take down. Jandal uses Twitter 
as a platform to advocate for ISIS as well as promote other extremist 
accounts. Via Twitter, Abu Jandal has condoned violence against 
civilians, including the victims of Paris's January 2015 Charlie Hebdo 
attacks.
    Aman Abdulrahman is believed to be responsible for the extensive 
translation of pro-ISIS propaganda from Arabic to Indonesian. His 
materials are available on a website called al-Mustaliq.com. He is also 
the ideologue behind at least 9 other local Islamist groups, 
including:\6\
---------------------------------------------------------------------------
    \6\ https://www.youtube.com/
watch?v=rQbqNl_lacg&ebc=ANyPxKp3MFwU2bBA6eexRCPM- 
jrun_w8LCmzzJWGttu4HycGzDSHpmItLQWhxfwH1Mwa-QeT-wisO1IfjE-
lA44nZoNW8hfekg.
---------------------------------------------------------------------------
  <bullet> Tawhid wal Jihad group
  <bullet> Jamaah Ansharut Tauhid
  <bullet> Mujahedin East Indonesia
  <bullet> Mujahedin West Indonesia (MIB)
  <bullet> the Bima group
  <bullet> NII Banten also known as Ring Banten
  <bullet> Laskar Jundullah
  <bullet> the Islamic Sharia Activists Forum or Forum Aktivis Syariat 
        Islam (FAKSI)
  <bullet> and the Student Movement for Islamic Sharia or Gerakan 
        Mahasiswa Untuk Syariat Islam (Gema Salam).
                            the philippines
    In the Philippines, the Muslims of the southern-most islands of 
Mindanao have for centuries sought independence--first from Spain, then 
from the United States, and now from secular Philippine rule. The most 
recent vehicle for this pursuit of independence is the militancy of the 
Abu Sayyaf Group (ASG), an Islamist terrorist organization that seeks 
to establish an independent Islamic state in the southern Philippines. 
ASG was founded by and named after Abdurajak Janjalani, who took the 
nom de guerre Abu Sayyaf, ``Father of Swordsmen.''
    ASG is known for kidnapping innocents, including Westerners, for 
ransom and beheading captives if their demands are not met. ASG's 
brutal decapitations date back to 2001, predating the notorious 
beheadings by al-Qaeda and ISIS. ASG's relationship with al-Qaeda 
brought extra attention to the Philippines as a battleground in the 
U.S.-led Global War on Terror. In the summer of 2014, ASG leaders 
pledged allegiance to ISIS and its leader, Abu Bakr al-Baghdadi,\7\ 
drawing focus back to ASG's presence in the southern Philippines and 
its potential threat to other areas of Southeast Asia.
---------------------------------------------------------------------------
    \7\ http://www.counterextremism.com/extremists/abu-bakr-al-
baghdadi.
---------------------------------------------------------------------------
                                malaysia
    In Malaysia, as Brookings \8\ reported last December, ISIS 
conspires to initiate new attacks in major cities like Kuala Lumpur, as 
highlighted in a memo released by Malaysian police in December 2015. 
The memo stated that on November 15, 2015, representatives of Abu 
Sayyaf, ISIS, and the Moro National Liberation Front (MNLF) met in 
person in the Philippines and conspired to commit terrorist attacks in 
Malaysia. The police memo added that there were allegedly Abu Sayyaf 
and ISIS militants already present in a number of cities, including 
Kuala Lumpur.
---------------------------------------------------------------------------
    \8\ http://www.brookings.edu/research/opinions/2015/12/16-malaysia-
danger-from-islamic-state-chin.
---------------------------------------------------------------------------
    This is troubling, not only because it puts Malaysia on the radar 
of terrorist targets, but because it indicates possible increased 
extremist recruitment in the country. Malaysians are already vulnerable 
to extremism because of Islamization programs that the government began 
in the 1980s. These efforts were made to appease and integrate 
extremist elements already existing in the country at the time. 
Instead, they normalized extremist rhetoric. In 2014, for example, 
current Malaysian Prime Minister Najib Razak ``hailed'' the courage of 
ISIS fighters. Another former prime minister, Mahathir Mohamad, is also 
known for repeating extremist rhetoric-including, ironically, blaming 
Israel for the growth of ISIS.
    Thus, ties are already present between ISIS and local militant 
groups in Southeast Asia. Consequently, it is imperative that the 
regional governments go beyond law enforcement initiatives and create 
proactive policies to deter further growth in ISIS' influence. The 
United States should continue to provide support for measures that work 
to prevent violent extremism.
                            recommendations
1. Remove Extremist Content On-line and on Social Media
    The first step is to assist regional governments in their effort to 
remove extremist propaganda from the internet and social media in the 
region. First, Southeast Asian governments must create policies and 
work with the private sector to take down extremist propaganda on-line. 
Indonesia is of particular importance, given its role as the host to 
approximately 70 percent of the pro-ISIS websites in the region.
2. Counter Violent and Non-Violent Islamist Messaging
    Regional governments should consider the separatist messaging of 
groups like Hizb ut-Tahrir and televangelists like Zakir Naik in the 
same category as ISIS propaganda. All 3 encourage a separatist identity 
among otherwise pluralist Southeast Asian communities. It is an alien 
interpretation of Islam in the region that can easily be fought off 
with a stronger spotlight on moderate Muslim organizations. Otherwise, 
even the non-violent Islamist messaging feeds radicalized youth 
straight towards jihadist recruiters.
3. Improve Criminal Laws in Indonesia
    First, encourage the Indonesian government to criminalize 
membership in militant groups like ISIS, fundraising for extremist 
groups and activities, and leaving the country to train at jihadist 
camps. Unlike Malaysia, it is not illegal to support ISIS in Indonesia. 
To date, law enforcement in Indonesia has had to fall back on more 
generic charges related to terrorism.
    Address prisoner radicalization. Prison activity is not monitored 
as closely as it should be in Indonesia. This leaves petty criminals 
vulnerable to radicalization in prison. A report by the U.S. Agency for 
International Development found that ``Due to overcrowding and limited 
resources, Indonesian prison officials struggle to isolate jihadist 
inmates from the general jail population.'' Moreover, pro-ISIS 
prisoners are able to proselytize to inmates openly.
    Encourage regional governments to support moderate Islamic groups 
to boost the role of aggressive, preventative messaging. De-
radicalization programs initiated after the Bali bombings were limited 
to those involving law enforcement and the judiciary. Instead, public 
messaging, engagement by the media and in schools are all necessary 
ingredients for success.
4. Support the Moderate Islam Indigenous to Southeast Asia
    In Indonesia, for example, the indigenous and peaceful 
interpretation of Islam is called Nusanatara Islam. The clerical body 
that supports this interpretation is called Nahdatul Ulema. Nusanatara 
Islam has approximately 40-50 million followers. On social media, 
Indonesian Muslims denounce ISIS using the hashtag #WeAreNotAfraid.
    Yenny Wahid, the daughter of former Indonesian President 
Abdurrahman Wahid, founded a research center in Jakarta focusing on 
religion and pluralism called the Wahid Institute. The motto listed on 
the organization's website says, ``Seeding Plural and Peaceful Islam.''
    Ms. Wahid is quoted as saying, ``We're not just coming up with a 
counter narrative, we are coming up with a counter identity, and that's 
what all this is about. We believe we're good Muslims but to be a good 
Muslim we don't have to accept the recipes that are handed out by some 
radicals from the Middle East.''
    Sisters in Islam (SIS) \9\ is a Malaysian organization focused on 
promoting universal human rights, including advocacy for women through 
an Islamic lens.
---------------------------------------------------------------------------
    \9\ http://www.sistersinislam.org.my/page.php?54.
---------------------------------------------------------------------------
    SIS has challenged the legality of child marriage, polygamy, and 
hudood laws (sharia laws governing adultery and other personal 
matters). SIS drafts original Islamic legal theory and jurisprudence as 
well, including the defense of free speech, protections for apostates 
against prosecution, and other human rights issues.
                               conclusion
    The governments of Southeast Asia can look to Europe and the United 
Kingdom as an example of what not to do. Islamist activity, when it 
appeared decades ago, was treated as something innocuous. But 
unchallenged, it grew as an ideology that has become not only a real 
security threat to the West, but a de-stabilizing and stigmatizing 
force for innocent Muslim citizens as well.
    Southeast Asia has an opportunity now to respond properly to the 
growing extremist threat by addressing important identity issues and 
providing alternatives to the extremist messages daily churned out by 
ISIS and other Islamist groups. Otherwise, the threat to other 
countries like the United States will only grow over time.

    Mr. King. Thank you very much for your testimony.
    Our next witness is Dr. Joseph C. Liow. He is a senior 
fellow in the Brookings Center for East Asia Policy Studies. He 
is concurrently a professor and dean at the Rajaratnam School 
of International Studies in Singapore. He is the author and 
editor of 11 books or monographs. Dr. Liow holds a doctorate in 
international relations for the London School of Economics and 
Political Science.
    Dr. Liow, you are recognized. Thank you very much for being 
here today.

   STATEMENT OF JOSEPH CHINYONG LIOW, SENIOR FELLOW, FOREIGN 
  POLICY, CENTER FOR EAST ASIA POLICY STUDIES, THE BROOKINGS 
                          INSTITUTION

    Mr. Liow. Thank you, Mr. Chairman.
    Mr. Chairman, Members of the committee, thank you for this 
honor and privilege to be here today. Let me start by saying 
that any assessment of the ISIS threat in Southeast Asia must 
begin with the observation that terrorism is not a new 
phenomenon in the region. It goes as far back as the era of 
anticolonial struggle, but gathered pace after 9/11 with a 
series of attacks perpetrated mostly by the al-Qaeda-linked 
Jemaah Islamiyah terrorist organization.
    Against this backdrop, recent ISIS-inspired attacks in 
Jakarta and the southern Philippines serve as a timely reminder 
of the threat that terrorism continues to pose to Southeast 
Asian societies.
    Related to ISIS, the threat takes 3 forms. First, the 
danger of attacks perpetrated by local groups or individuals 
inspired by ISIS. These groups or individuals might not have 
direct links to ISIS central. Rather, they possess local 
grievances for which the extraction that is ISIS provides 
impetus and inspiration, usually via internet. Jakarta was an 
example of this.
    Second, the threat pulls by returnees from Syria and Iraq. 
In particular, the possibility that hardened militants would 
return with battlefield experience and operational knowledge to 
either plan or mount attacks back in the region. Thankfully, 
this has not yet happened.
    Thus far, the returnees in custody are deportees, who 
failed in their attempt to get to Syria and Iraq in the first 
place.
    Third, the threat posed by militants who will soon be 
released from prison. At issue here is the weak prison system, 
particularly in Indonesia and the radicalization that occurs 
within prisons. We should bear in mind, though, that not all of 
these soon-to-be-released militants are ISIS supporters or 
sympathizers. In fact, the vast majority are members of 
militant groups known to be anti-ISIS. There will be about 100 
or so released from Indonesia at the end of the year.
    So how serious is the threat posed by ISIS? The threat is 
certainly real and warrants our attention for reasons I already 
mentioned. By the same time, we must take care not to 
exaggerate it. Let me make 3 points in that regard.
    No. 1, when we speak of ISIS in Southeast Asia, we have to 
be mindful of the fact that at present, there is no such thing 
as an ISIS Southeast Asia, nor has ISIS central formally 
declared an interest in any Southeast Asian country. For the 
most part, we are dealing with radical groups and individuals 
who have on their own taken oaths of allegiance to ISIS.
    No. 2, the number of Southeast Asians fighting in Iraq and 
Syria remains comparatively small. We are talking of, at most, 
700 mostly from Indonesia. By way of comparison, thousands are 
coming from Europe. In addition to this, a large proportion of 
Southeast Asians' death, I would say around 40 percent, 
comprise women and children under the age of 15.
    No. 3, in our anxiety over ISIS, we must be careful not to 
miss the forest for the trees. There are multiple militant 
groups operating in Southeast Asia. Many are at odds with each 
other. Not all seek affiliation to or are enamored of ISIS.
    In fact, I would argue that the greater long-term threat 
comes from a rejuvenated Jemaah Islamiyah, which has a larger 
network and is better funded than the pro-ISIS groups in the 
region currently.
    What about terrorism in Southeast Asia more generally? 
Here, too, it is imperative that we keep things in perspective. 
Yes, for Southeast Asia today, the question of terrorist 
attacks is, unfortunately, no longer a matter of if but when. 
Even if the influence of ISIS diminishes over time, and it 
will, terrorism is part of the lay of the land and will not be 
eradicated any time soon. But terrorism, whether perpetrated by 
ISIS or Jemaah Islamiyah is not an existential threat to 
Southeast Asian societies.
    All indicators are that from an operational perspective, 
the threat remains at a low level. Of course, given the 
resilience and evolutionary nature of terrorism, this situation 
might well change. As I alluded to earlier, one possible factor 
that could prompt a change is a deliberate shift of attention 
on ISIS central to Southeast Asia.
    This, however, seems unlikely for now, as ISIS is 
preoccupied with its immediate priority of holding ground in 
Iraq and Syria and expanding its fight in Libya, Yemen, and 
Europe.
    A final observation, without being complacent, we should 
also recognize that regional governments are, today, better 
equipped and prepared to deal with the threat compared to a 
decade-and-a-half ago, although capacity can and should be 
further improved with cooperation among themselves and with 
help from the United States. Thank you.
    [The prepared statement of Mr. Liow follows:]
               Prepared Statement of Joseph Chinyong Liow
                             April 27, 2016
    Chairman McCaul, Ranking Member Thompson, distinguished Members of 
the subcommittee, thank you for this opportunity to testify on the 
subject of the threat of ISIS in Southeast Asia. It is a pleasure and 
privilege to appear before you today.
    My name is Joseph Chinyong Liow. I hold the Lee Kuan Yew Chair in 
Southeast Asia Studies at the Brookings Institution, where I am also 
senior fellow in the Foreign Policy Program. I am, concurrently, dean 
and professor of Comparative and International Politics at the S. 
Rajaratnam School of International Studies, Nanyang Technological 
University, in Singapore. I am a citizen of the Republic of Singapore. 
The views expressed here in this testimony are my own, and should not 
be construed as those of the Brookings Institution, the S. Rajaratnam 
School, or indeed, the government of Singapore.
    I have been asked to offer my assessment of terrorism in Southeast 
Asia especially in relation to ISIS. Let me begin by saying that any 
assessment of the threat posed by ISIS in Southeast Asia must begin 
with the observation that terrorism is not a new phenomenon in the 
region. During the era of anti-colonial struggle, terrorism and 
political violence were tactics used frequently by various groups. 
Since 9/11, Southeast Asia has witnessed several terrorist incidents 
perpetrated mostly by the al-Qaeda-linked Jemaah Islamiyah terrorist 
organization and its splinter groups. These incidents include the 
October 2002 Bali bombings, the August 2003 J.W. Marriott Hotel bombing 
in Jakarta, the bombing of Super Ferry 14 in the southern Philippines 
in February 2004, the September 2004 Australian Embassy bombing in 
Jakarta, further bombings in Bali in October 2005, and further bombings 
at the J.W. Marriott (again) and the Ritz-Carlton Hotel in Jakarta in 
2009. From this last series of attacks to the Jakarta attacks earlier 
this year, there has not been a major urban terrorist incident, 
although sporadic violence had continued in the form of clashes between 
security forces and militant groups, especially in the southern 
Philippines and also in Poso, Central Sulawesi, Indonesia.\1\ In 2010, 
Indonesian security forces discovered a major militant training camp in 
Aceh which involved a number of jihadi groups. Several reasons can be 
cited to explain this hiatus: Improved counterterrorism capabilities of 
regional security forces, disagreements within the jihadi community 
over the indiscriminate killing of Muslims, and rivalry and 
factionalism among jihadi groups that have reduced their capabilities 
and operational effectiveness.
---------------------------------------------------------------------------
    \1\ There were bomb attacks in Bangkok during this time but these 
were not linked to ISIS or any other Muslim terrorist groups. There 
were also bombings in Myanmar in 2013, but the identity of the 
perpetrators remains unknown.
---------------------------------------------------------------------------
    Against this backdrop, the ISIS-inspired attacks in Jakarta on 
January 14, 2016, the April 9, 2016 attack on Philippine security 
forces in the southern island of Basilan conducted by groups claiming 
allegiance to ISIS, and a recent spat of kidnappings in southern 
Philippines serve as a timely reminder of the persistent threat that 
terrorism continues to pose to Southeast Asian societies. ISIS has 
emerged as the signal expression of this threat, in part, because of 
the speed with which it has gained popularity in the region. When Abu 
Bakr al-Baghdadi announced on June 28, 2014 (the first day of Ramadhan) 
that a caliphate had been formed by ISIS, the announcement captured the 
imagination of the radical fringes across Southeast Asia. The 
announcement was followed by a comprehensive and effective propaganda 
campaign that conveyed the impression of ISIS' invincibility and 
validation from god. July and August that year witnessed a series of 
bay'at (pledge of allegiance) to ISIS taken by radical groups and 
clerics from Indonesia and the Philippines. It was the audacity of its 
announcement of the caliphate and forcefulness of its communications 
strategy that set ISIS apart from other groups. In September, the 
Southeast Asian dimension of ISIS was given something of a formal 
expression with the formation of Katibah Nusantara, a Southeast Asian 
wing of ISIS formed by Malay and Indonesian speaking fighters in Syria. 
Katibah fulfills several functions: It provides a social network to 
help Southeast Asian recruits settle in, training for those among them 
who would eventually take up arms, and communications with the network 
of pro-ISIS groups operating in Syria. By dint of these developments, 
the threat posed by ISIS in Southeast Asia is real, and it has been 
growing since mid-2014. Nevertheless, the extent of the threat should 
also not be exaggerated.
                     the isis threat in perspective
    On present evidence, no ISIS-aligned group has developed the 
capability to mount catastrophic, mass casualty attacks in the region. 
Four civilians were killed in the Jakarta attacks. By comparison, 130 
were killed in the Paris attacks, on which the Jakarta attacks were 
purportedly modelled. Because of improved legislation and operational 
capabilities that have gradually developed over the years since the 
October 2002 Bali bombings, Southeast Asian governments have managed 
for the most part to contain the threat posed by terrorist and jihadi 
groups.
    An accurate assessment of the number of Southeast Asians currently 
in Iraq and Syria is difficult to make. Most reasonable estimates place 
the number at 700-800. The majority are Indonesians, with an estimated 
100 Malaysians as well, and a few from Singapore and possibly, the 
Philippines. In both real and proportionate terms, these figures are a 
mere fraction of the recruits coming from Europe and Australia.\2\ Nor 
do they all carry arms. A significant number (about 40%) are women and 
children below the age of 15. These women and children have followed 
the men to Syria in support of their efforts to fight in a holy war, 
and also to live in a pristine ``Islamic State''. Of the Southeast 
Asians who carry arms, some have already been killed in the conflict 
zones, especially in battles with Kurdish forces. Finally, not all 
Southeast Asians fighting in the conflict zones are fighting for ISIS. 
There are some known to be fighting with other rebel groups as well as 
the al-Nusra Front.
---------------------------------------------------------------------------
    \2\ Edward Delman, ``ISIS in the World's Largest Muslim Country: 
Why are there so few Indonesians joining the Islamic state?'' The 
Atlantic, January 3, 2016.
---------------------------------------------------------------------------
    In keeping with the need for proper perspective, we should also 
bear in mind that despite the hype, there is at present no ``ISIS 
Southeast Asia,'' nor has ISIS central formally declared an interest in 
any Southeast Asian country. For the most part, the presence of ISIS in 
Southeast Asia is expressed in the form of radical groups and 
individuals who have taken oaths of allegiance to ISIS. In other words, 
the ISIS phenomenon is imbricated with indigenous jihadi agendas and 
movements. This should prompt a further consideration: The appeal of 
ISIS in Southeast Asia differs depending on the country. In Malaysia 
and Singapore, it has mostly been the eschatological ideology and 
theology of ISIS that has attracted a following. In Indonesia, while 
ISIS does have religious appeal, other reasons have also been cited to 
explain its attraction. These include kinship networks and loyalties, 
group/personal rivalries, and personal and pragmatic interests. As a 
consequence, the jihadi landscape in Indonesia is considerably more 
complex and variegated compared to other Southeast Asian countries. In 
the southern Philippines, groups that have long engaged in violence for 
political and criminal reasons are now claiming allegiance to ISIS. It 
is also worth noting that while Khatibah Nusantara was established in 
Syria as the Southeast Asian wing of ISIS, not all foreign fighters 
from the region have joined it. For instance, rather than aligning 
themselves with the Indonesian-led Khatibah, some Malaysians are known 
to be fighting alongside French, Algerian, and Tunisian foreign 
fighters instead. A likely reason for this is rivalry and disagreement 
with the Indonesian leadership.
    A final observation is in order, regarding the pressing matter of 
foreign fighters returning to Southeast Asia. Given how terrorism in 
Southeast Asia was previously catalyzed by returnees from the Afghan 
jihad against the Soviet Union, it should hardly be surprising that the 
scenario of hardened militants returning from Syria with ideology, 
operational knowledge, and front-line experience to mount attacks in 
the region is one that exercises security planners. This is a potential 
threat that cannot be taken lightly. But it should also be viewed in 
context. Three points are instructive in this regard:
    First, the returnees known to regional governments and currently in 
custody are essentially deportees who failed in their efforts to gain 
entry into Syria. They are not fighters who have returned of their own 
accord or were sent back by ISIS central for purposes of launching 
attacks in the region;
    Second, in the 1980s, the primary objective of Indonesian radicals 
and jihadis in Afghanistan was not so much the defeat of Soviet forces, 
but to obtain training and experience in order to return to fight the 
repressive regime of President Suharto as revenge for its hardline 
position against Muslim groups. With the democratization of post-
Suharto Indonesia, this situation no longer holds;
    Third, given the currency of ISIS' eschatology at least among 
certain segments of its Southeast Asian support, it stands to reason 
that many among them could well decide to stay the course in Syria to 
fight the great end-times battle.\3\ This is more likely now that ISIS 
has been losing considerable swathes of its ``Islamic State'' 
territory--approximately 40% in Iraq and 10% in Syria, and has called 
for a new front to be established in Libya. In other words, while the 
threat of returnees wrecking havoc is certainly real, there are equally 
compelling reasons why many foreign fighters might in fact not return 
to Southeast Asia. In this respect, the greater threat may well be that 
the idea and phenomenon of ISIS would provide greater inspiration for 
local jihadis to continue waging what are essentially localized 
struggles.
---------------------------------------------------------------------------
    \3\ Narrated by Ibn 'Umar that the Messenger of Allah said: ``O 
Allah bless us in our Sham! O Allah bless us in our Yemen.'' They said: 
``And in our Najd'' He said: ``O Allah bless us in our Sham! O Allah 
bless us in our Yemen.'' They said: ``And in our Najd'' He said: 
``Earthquakes are there, and tribulations are there.'' Or he said: 
``The horn of Shaitan comes from there.''--Jami` al-Tirmidhi.
---------------------------------------------------------------------------
                 the nature of the problem in indonesia
    Indonesia was the victim of the first ISIS-inspired attack in 
Southeast Asia. This occurred on January 14, 2016, when self-proclaimed 
followers of ISIS set off bombs at a Starbucks outside the Sarinah mall 
and at a nearby police outpost, and gunfire broke out on the streets at 
Jalan Tamrin in the heart of Jakarta.\4\ While the casualty toll was 
limited, it could have been higher had the militants succeeded in 
conducting the attack on a much larger and more popular shopping mall, 
as was the original intent (but they were discouraged by the tight 
security at that mall).
---------------------------------------------------------------------------
    \4\ Sidney Jones, ``Battling ISIS in Indonesia,'' New York Times, 
January 18, 2016.
---------------------------------------------------------------------------
    The fact is that while Indonesia is often touted for its 
``moderation'' in Islamic thought and practice, a radical Islamic 
fringe has been part of the Indonesian social and political landscape 
for a long time. During the Second World War the Dutch East Indies (as 
Indonesia was then known) was occupied by imperial Japan. Towards the 
end of the occupation, the Japanese military administration 
deliberately adopted a policy of politicizing the Muslim population and 
encouraging the assertion of Islamic identity. While the intent was to 
stoke indigenous ill-will against the Dutch, it effectively created, 
radicalized, and empowered an entire generation of youth, many of whom 
eventually took up arms not only against returning British and Dutch 
forces, but later also against the Republican Indonesian government 
that was subsequently established. Their rallying cry was jihad; and 
their objective was the implementation of Islamic law as a fundamental 
organising principle for post-independence Indonesian society. Led by 
charismatic self-proclaimed religious leaders such as Kartosuwirjo, 
radicalized youth established the Darul Islam Indonesia movement 
(Islamic State of Indonesia) and waged armed struggle against the 
Dutch. This armed struggle continued after transfer of power in 1949, 
this time against the Republican government in Jakarta. The Darul Islam 
movement presented an alternative vision of Islamic society to 
Indonesians, a vision they were prepared to usher into reality through 
the use of political violence. While generations of Darul Islam 
leadership have since been eliminated, the vision itself, and many of 
the networks built on it, remained intact and informs much of present-
day radicalism and jihadism in Indonesia, including the forms that are 
aligned with ISIS.
    Meanwhile, the mainstream of Indonesian society was itself in the 
throes of an Islamisation process triggered as much by internal factors 
as it was by the widely-discussed phenomenon of the ``global Islamic 
resurgence.'' Since the constitutional debates in 1945, a segment of 
the Indonesian political class has agitated for the implementation of 
shari'a in the country. These efforts were defeated by due process in 
1945, 1959, and 2001, but have never been entirely eliminated. Many 
chose to read this as indicative of the unpopularity of Islamic 
strictures as a formal principle of governance. Yet, other segments of 
the Muslim leadership saw this as evidence of an urgent need for 
greater Islamic proselytization--da'wa--in Indonesia.
    For the first three-quarters of President Suharto's 32-year New 
Order rule, Muslim activism was depoliticized and circumscribed. This 
had the effect of catalyzing a vibrant Islamic intellectual milieu as 
Islamic social movements moved underground and into the campuses. Among 
other things, it found expression in the rise of a number of da'wa 
groups and Muslim student associations in the late 1960s and early 
1970s. Their activities flourished with funding from Saudi Arabia. 
Similar to what happened in neighbouring Malaysia, before long 
graduates of these groups and associations would come to control the 
levers of power as they entered the buraucracy and positions of 
leadership.
    Fast-forward to the fall of Suharto in the late 1990s, this vibrant 
``apoliticized'' milieu quickly morphed and surfaced as a dynamic 
terrain of Islamic activism comprising groups with multiple shades of 
doctrinal affiliations. Many of these were reformist and liberal groups 
that embraced democracy and human rights as wholeheartedly as they did 
Islamic culture and tradition. But another less appealing side also 
emerged, comprising groups that drank from the wells of Darul Islam 
radicalism. The most vivid, but by no means only, expression of this 
phenomenon was the Jemaah Islamiyah, created by the late Abdullah 
Sungkar and Abu Bakar Ba'asyir, two Indonesian Islamic clerics of Arab 
origin with deep roots in Darul Islam as well as the da'wa movement. 
What is significant about Jemaah Islamiyah is the fact that it was 
built not only around Afghan veterans, but more importantly, kin 
networks of Darul Islam supporters and their disaffected descendents. 
Jemaah Islamiyah, as we know, masterminded a number of terrorist 
attacks in Indonesia through the 2000s, the most devastating being the 
Bali bombings. Less visible to the world--but no less bloody--was the 
violence perpetrated by Jemaah Islamiyah and other jihadi groups in the 
Eastern Indonesian islands of Sulawesi, Maluku, and North Maluku. Since 
the 2009 attacks on the J.W. Marriott and the Ritz Carlton hotels in 
Jakarta, Indonesian jihadi activity has moved away from targeting 
foreigners and has focused on the Indonesian police. This pattern held 
until the ISIS-inspired attacks in Jakarta in January 2016 in which 
civilians were also killed.
    After a frustrating initial period of denial, the Indonesian 
government eventually managed to circumscribe the activities of Jemaah 
Islamiyah and killed and/or captured a considerable number of its 
leadership and membership. Yet, Jemaah Islamiyah still exists. More 
disconcertingly, it has consolidated, and has not disavowed violence in 
pursuit of its objective of the creation of an Islamic state. Likewise, 
notwithstanding 2 peace accords, residual grievances and the threat of 
violence continues to cast a long shadow over places like Poso in 
Central Sulawesi, which remains a hothouse for jihadi activity 
including those of self-proclaimed ISIS militants. The fact that 
Uighurs were found in the training camp of Santoso's pro-ISIS group, 
Mujahidin Indonesia Timur or the Mujahidin of Eastern Indonesia, in 
Poso further attests to a new phenomenon--foreign fighters who are 
using Poso for purposes of training and, possibly, transit to Syria.\5\
---------------------------------------------------------------------------
    \5\ ``Two Chinese Uighurs Killed in Poso Terrorist Shootout,'' 
Jakarta Globe, March 16, 2016.
---------------------------------------------------------------------------
    It is important to mention that in Indonesia, Jemaah Islamiyah are 
at odds with ISIS for reasons of theological and personality 
differences. Ironically, because of their anti-ISIS position, Jemaah 
Islamiyah has been granted a public platform from which they have 
readily denounced ISIS. An example is how Abu Tholut (Imron), a 
convicted terrorist serving a prison sentence in Indonesia, has been 
given airtime to criticize ISIS. While any denunciation of ISIS is 
understandably welcome, the fact that the Indonesian government is 
enlisting Jemaah Islamiyah, which has been designated a terrorist 
organization by the United States and the United Nations and whose 
membership includes hardline militants, to do this cannot but give 
pause. As mentioned earlier, Jemaah Islamiyah, which has a following 
that is far larger than ISIS in Indonesia, has never renounced the use 
of violence to achieve its ends. In fact, Jemaah Islamiyah has over the 
years managed to regroup, consolidate, and recruit.\6\ Finally, a 
significant number of Jemaah Islamiyah members currently imprisoned are 
expected to be released towards the end of the year when their 
sentences run out. Indonesia does not as yet have any strategy to deal 
with released terrorists in terms of rehabilitation. Simply put, the 
arid reality is that while ISIS is commanding attention today, it may 
well be Jemaah Islamiyah--with its organizational strength, funding, 
and more established support base--that will pose a graver terrorist 
threat in Indonesia.
---------------------------------------------------------------------------
    \6\ ``Extremist group Jemaah Islamiyah active again, recruiting and 
collecting funds,'' Straits Times, February 15, 2016.
---------------------------------------------------------------------------
                 the nature of the problem in malaysia
    There are an estimated 100 Malaysians in Syria and Iraq, of which 
more than 10 are women. More than 10 are also known to have already 
been killed on the battlefield, mostly in Syria (one known casualty in 
Iraq as of 2015). Although there has not been a successful terrorist 
attack in Malaysia, police raids in recent months have uncovered 
efforts to mount such operations in the country, including an alleged 
attempt to kidnap the country's political leadership. In 2015 alone, 
more than a hundred alleged ISIS-sympathizers were arrested in the 
country.
    Any attempt to understand the context and nature of the terror 
threat posed by ISIS in Malaysia must begin with an examination of the 
climate of religious convervatism and intolerance in the country, to 
which the UMNO-led ``moderate'' government has contributed by way of 
its institutions, affiliates, and policies. This climate of religious 
conservatism and intolerance has created fertile conditions for ISIS 
ideology to gain popularity, to wit, the reality is a far cry from the 
``moderate'' image of Malaysia that the government of Prime Minister 
Najib Tun Razak has tried to portray.
    Islam has unfortunately become heavily politicized in Malaysia. 
Malaysia's dominant political party, UMNO, is a Malay-Muslim party that 
was created with the main objective of, at least in theory, promoting 
and defending Malay-Muslim supremacy. According to the party's 
narrative, this supremacy is coming under siege from various cultural 
(read: non-Malay) and religious (read: non-Muslim) quarters and hence 
has to be staunchly defended. Given that Malaysia has a Malay-Muslim 
majority population, it should come as no surprise that UMNO's chief 
political opponents are also Malay-Muslim parties who equally brandish 
religious credentials as a source of legitimacy. The consequence of 
this is a condition whereby the political parties try to ``out-Islam'' 
each other, leaving non-Muslims and minority Muslim sects and movements 
marginalized in their wake. But the politics merely expresses the 
perpetuation of an exclusivist brand of Islam that is divorced from the 
religion's historically enlightened traditions, and which has no 
intention to encourage pluralism or compromise. Because politics in 
Malaysia is now a zero sum game as UMNO struggles to cling on to power 
by focusing on its religious credentials, religion has also become a 
zero sum game.
    Related to this is the fact that this politicization of Islam is 
taking place against a backdrop of a state which has taken upon itself 
to police Islam and curtail any expression of faith that departs from 
the mainstream Shafi'i tradition. Yes, the ummah may be universal and 
Islamic confessional traditions may be diverse, but in Malaysia there 
is very little room for compromise beyond the ``Islam'' sanctioned by 
the state. The Shi'a are legally proscribed, and several smaller 
Islamic sects are deemed deviant and hence, banned. All this happens 
despite the existence of constitutional provisions for freedom of 
worship. Needless to say, attempts by various fringe quarters in Muslim 
society to move discourse away from an overly exclusivist register have 
run up against the considerable weight of the state, who appoint and 
empower religious authorities that define and police ``right'' and 
``wrong'' Islam.
    Finally, rather than extol the virtues and conciliatory features of 
Islam's rich tradition, many Malay-Muslim political leaders have 
instead chosen to use religion to amplify difference, to reinforce 
extreme interpretations of Malay-Muslim denizen rights, and to condemn 
the ``other'' (non-Muslims) as a threat to these rights. For fear of 
further erosion of legitimacy and political support, the Malay-Muslim 
leadership of the country have circled the wagons, allowing vocal 
right-wing ethnonationalist and religious groups to preach incendiary 
messages against Christians and Hindus with impunity. In extreme cases, 
they have even flippantly referred to fellow Malaysians who are 
adherents to other religious faiths openly as ``enemies of Islam.'' 
Until recently even state-sanctioned Friday sermons have on some 
occasions blatantly taken to referring to non-Muslim Malaysians as 
``enemies of Islam.''
    Granted, Malaysia is now a member of the anti-ISIS coalition, and 
its leaders have finally started to act against inflammatory rhetoric 
targeted at non-Muslim and minority Muslim sects. Yet, given the 
reality that is the religio-political climate in Malaysia today, it 
should hardly be a surprise that Malaysia is now struggling to deal 
with the appeal of extremist ideas of a group such as ISIS. Such is the 
potential depth of this appeal, ISIS sympathizers have been found even 
within the security forces (although some news reports have exaggerated 
their numbers). A particular concern for Malaysian authorities is the 
proliferation of Malay-language radical websites and chat groups that 
are pro-ISIS in orientation. This indicates that there is clearly a 
Malaysian audience for ISIS-related propaganda. It also renders the 
dangers of self-radicalisation more acute, and the prospects of ``lone-
wolf'' terrorism more likely.
          assessing counterterrorism efforts in southeast asia
    Unlike the 1990s, when they were caught offguard by the return of 
Jihadis from Afghanistan, regional security forces have been alert to 
the threat that potential returnees from Syria and Iraq might pose. In 
part, this is because counterterrorism has already been a matter of 
policy priority since the 9/11 attacks (when investigations revealed 
that some of the planning took place in Southeast Asia) and the Bali 
bombings in October 2002. The declaration of the caliphate in mid-2014, 
and revelations that Southeast Asians were fighting in Syria, have 
further hastened counterterrorism efforts in Indonesia, Malaysia, and 
Singapore.
    In Indonesia, counterterrorism operations mounted by both 
Detachment-88 (Densus-88 or National Police Counterterrorism Squad) and 
the BNPT (National Counterterrorism Agency) have pinned down militant 
ISIS sympathizers in Poso, Central Sulawesi. In Malaysia and Singapore, 
security agencies have used internal security legislation to curtail 
ISIS-inpired activity and arrest suspected ISIS sympathizers. In the 
Philippines, while several militant groups have sworn allegiance to 
ISIS, their activities remain confined to the southern regions of the 
archipelago, in Sulu, Basilan, and Mindanao. That being said, 
authorities in Philippines are worried that an attack may happen in 
Manila.
    In response to the Jakarta attacks earlier this year, Indonesia is 
currently in the process of tabling significant amendments to existing 
laws pertaining to terrorism (Law No. 15/2003 on Terrorism). The 
general objective behind these revisions appears to be to allow 
security forces to pre-empt acts of terrorism rather than merely react 
to them after they have occurred. A series of recommendations for legal 
reform have been submitted to the parliament to that effect, and await 
parliamentary debate. These recommendations include, among other 
things, introduction of some form of detention without trial for 
purposes of investigation, a redefinition of terrorism (to include not 
just physical acts but also hate speech, symbols, etc), swifter 
approval of electronic surveillance, and the arrest of individuals 
involved in military training overseas and the revoking of their 
citizenship (this is a direct response to the problem of Indonesian 
foreign fighters in Syria).
    There has also been considerable pushback against the ideoogy of 
ISIS, although more can certainly be done. Indonesia is home to 2 of 
the largest Muslim mass movements in the world--Nahdlatul Ulama (NU) 
and Muhammadiyah. NU and Muhammadiyah claim memberships of 40 million 
and 30 million respectively. Both are considered mainstream Muslim 
organizations widely accepted and popular among Indonesians (hence 
their large memberships). Their leaders and clerics are respected 
internationally as Islamic scholars of considerable repute. Noteworthy 
too, is the fact that both have launched their own programs to counter 
the narrative of ISIS, and indeed, of other radical groups. Similar 
efforts at countering the ISIS narrative can be observed in Malaysia 
and Singapore, albeit on a smaller scale. Nevertheless, such efforts 
could perhaps be further enhanced by greater cooperation and 
collaboration among them, especially given that the threat posed by 
ISIS is transnational in nature.
    The situation in their prison system poses a major problem for 
Indonesian counterterrorism efforts. Pro-ISIS and pro-Jemaah Islamiyah 
Jihadi ideologues have been recruiting easily in Indonesia's prisons. 
At issue is how these radical clerics, such as Abu Bakar Ba'asyir and 
Aman Abdurrahman, the chief ISIS ideologue in Indonesia, are allowed to 
mingle with ``gen pop'' on a regular basis (in fact, Aman Abdurrahman 
and Abu Bakar Ba'asyir were in constant communication over text 
messaging while both were in different prisons--Ba'asyir in Pasir Putih 
and Aman in Kembang Kuning--and it is likely that Aman eventually 
persuaded Ba'asyir to swear allegiance to ISIS, which he did on July 8, 
2014 only to rescind it later).\7\ This being the case, their radical 
ideas and sermons have enjoyed easy access to a ready, disaffected 
audience. In addition to this, corruption, incompetence, poor 
monitoring, and poor supervision of visits have all contributed to the 
ease with which radical ideas propounded by jihadi ideologues and 
recruiters are allowed proliferate among ``gen pop''. Hence, reform of 
the prison system is urgent, if not an absolute priority.
---------------------------------------------------------------------------
    \7\ Yuliasri Perdani and Ina Parlina, ``Govt to tighten prison 
security following Ba'asyir's `baiat,'' Jakarta Post, July 7, 2015.
---------------------------------------------------------------------------
    Perhaps the greatest challenge for the region as a whole is the 
policing and governance of the triborder waters encompassing the Sulu 
Sea (Philippines), waters off Sabah (Malaysia), and the Celebes/
Sulawesi Sea (Indonesia). This porous and ungoverned region has 
presented, and will continue to present, a major problem by virtue of 
the ease of movement for militants and terorrists across borders (see 
attached picture). This region has developed their own political 
economy over many decades, which involves not just the movement of 
militants and terrorists, but also human and arms trafficking. Local 
authorities are often either unable to curtail such activities or, 
indeed, complicit in them. The challenge posed by the ungoverned space 
in this triborder area will require multi-national cooperation to 
surmount. None of the regional states can do it alone. They do not 
possess the capabilities required to police this vast and complex 
space, nor the authority to do so given that such efforts will 
necessarily involve cross-border operations. Moreover, as evident from 
the difficulties faced by regional security forces to apprehend 
militants from Jemaah Islamiyah and other groups ensconced in the Sulu 
archipelago, this region has already emerged as a safe haven for 
terrorists. With the ``Pivot'' strategy in place, the United States 
should consider exploring how to facilitate cooperation among regional 
states on this matter. There is also a definitive U.S. interest in 
this, given that American citizens have been kidnapped before by groups 
operating in this region.
    At present, there is on-going conversation and exchange of 
intelligence and information in various forms between Indonesia, 
Malaysia, the Philippines, and Singapore. But cooperation needs to be 
taken a step or two further, to involve joint patrols and where 
necessary, joint operations. Of course, such efforts could run up 
against rigid mindsets, obsolete paradigms, and the perennial 
reluctance to compromise sovereignty, but the harsh reality, as 
mentioned earlier, is that none of the regional states are capable of 
doing this on their own. Much in the same vein, cooperation between 
agencies within the various Southeast Asian governments--specifically, 
between the military, police, and intelligence--can also be improved. 
These 2 areas are where the United States can perhaps make a 
contribution by way of training programmes and transfer of operational 
knowledge.
                               conclusion
    The emergence of the phenomenon of ISIS in Southeast Asia and the 
traction it appears to have garnered is illustrative of how resilient 
but also evolutionary the threat of terrorism has become. Because of 
this, regional governments must remain vigilant to ISIS-related 
developments, particularly in terms monitoring both returnees as well 
as communications between militants in Syria and their counterparts and 
followers back home. They must equally be prepared to evolve with the 
threat in terms of counterterrorism strategies, narratives, and 
cooperation.
    At the same time, in our anxiety over ISIS, we must be careful not 
to miss the forest for the trees. There are multiple groups operating 
in Southeast Asia that are intent on using some form of political 
violence to further their ends. Many are at odds with each other; not 
all are seeking affiliation to, or enamored of, ISIS. Indeed, while 
ISIS appears an immediate concern, a case can be made that the longer 
term, possibly more resilient, terrorist threat to the region may not 
come from ISIS but from Jemaah Islamiyah, for reasons explained 
earlier. It is also imperative that the threat of terrorism in 
Southeast Asia be kept in perspective. Whether from ISIS or Jemaah 
Islamiyah, the threat of terrorism is not an existential one for 
Southeast Asia. Though eliminating terrorism altogether would be a tall 
order, the threat is certainly manageable if the correct balance of 
perpective and policies are taken, and cooperation among regional 
states is enhanced.
    The operational capabilities of Southeast Asian militant and 
terorrist groups, including those aligned to ISIS, remains limited. 
There is little evidence that groups have developed the sophistication 
and know-how to mount mass casualty attacks. However, we must be 
mindful that given the resilient and evolutionary nature of terrorism 
in Southeast Asia, this situation could well change. One possible 
factor that could prompt this change is a deliberate shift of attention 
of ISIS central to Southeast Asia, leading to the dispatch of hardened 
fighters to the region. This however, seems unlikely for the present as 
ISIS is preoccupied with its immediate priority of holding ground in 
Iraq and Syria, and possibly expanding its fight to Libya and Europe.
    ISIS-related activity in Southeast Asia poses no immediate threat 
to the American homeland. Thus far, there has also not been any 
indication of any specific desire on the part of ISIS-inspired 
militants to target offshore American interests such as embassies and/
or commercial enterprises. This does not mean however, that there is no 
need for vigilance. The Jakarta attacks could be indicative of a return 
to the targeting of foreigners. Meanwhile, U.S.-led anti-ISIS coalition 
successes in Syria and Iraq might elicit a call from ISIS central to 
its sympathizers and supporters world-wide to strike at the United 
States. On this score, it would serve U.S. interests to cooperate even 
more closely with regional partners in the fight against ISIS, and more 
generally, terrorism, in Southeast Asia.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






    Mr. King. Let me thank all the witnesses for their 
testimony. We have been joined by the Ranking Member.
    Brian, do you want to make an opening statement or submit 
for the record?
    Mr. Higgins. I will submit for the record.
    Mr. King. Okay. The Ranking Member will submit his 
statement for the record.
    [The statement of Ranking Member Higgins follows:]
               Statement of Ranking Member Brian Higgins
                             April 27, 2016
    Violent extremists in Southeast Asia are not a new phenomenon. For 
decades, Separatist movements have committed bombings, kidnappings, and 
assassinations in the region.
    With the emergence of ISIL and al-Qaeda the intensity of these 
attacks has only gotten more devastating.
    Over the past 2 years, in Malaysia alone, there has been a spike in 
terrorism-related arrests and detainments totaling nearly 160 Malaysian 
citizens.
    In 2002, a militant group tied to al-Qaeda bombed a nightclub in 
Bali, Indonesia killing 200 mostly Western tourists and injuring 
countless more.
    There have also been numerous suicide bombings targeting U.S. 
interests in the region, which have resulted in countless deaths.
    Earlier this year in January, militants attacked a busy shopping 
and tourist district in downtown Jakarta resulting in 8 deaths and 
numerous injuries.
    ISIL has taken responsibility for the January attack, which 
employed similar techniques used in the Paris, and Belgium attacks.
    Counterterrorism efforts in the region have had some success. The 
capabilities of the militant group, Jemaah Islamiyah or JI which has 
ties to al-Qaeda have been significantly degraded by the region's 
efforts.
    Unfortunately, terrorist groups like al-Qaeda and ISIL seemed 
poised to fill the void left by this and other groups.
    ISIL has targeted its extremist propaganda to the region in Malay 
and Pilipino languages.
    ISIL's aggressive recruitment efforts in the region must be matched 
by equally aggressive security efforts to contain supporters and limit 
their influence.
    While we cannot overstate the reach of al-Qaeda and ISIL's 
terrorist networks, we must not encourage the countries of Southeast 
Asia to respond to threats where there are none.
    While it is important to remain vigilant and respond to credible 
threats, it is also important to acknowledge that experts predict the 
threat from Southeast Asia will remain relatively low.
    Against this backdrop, we should encourage the governments of 
Southeast Asia to respect the rights and liberties of their citizens 
and discourage officials from using their counterterrorism efforts to 
restrict civil liberties and freedoms.
    I look forward to a robust discussion with our witnesses today 
about terrorist threats in Southeast Asia, and how we can shape U.S. 
policy to counter their efforts.

    Mr. King. At the outside, I want to thank Ranking Member 
Higgins for his support on this hearing and all the hearings 
prior to this.
    My question is, sort-of, broad-based and it will be to all 
of you, and it follows up on the conclusion of Dr. Liow's 
testimony. One thing that the European nations seem to realize 
since the attacks in Paris and Brussels, that there should be 
more cooperation among countries in Europe.
    I would ask you, do the countries in Southeast Asia, do 
they consider this a regional threat? Is there a level of 
cooperation among them? Also, considering the outstanding work 
that is done by Australia, are they involved in any of this 
sharing of information? Is their information shared and other 
regional plans?
    I will start with Mr. Watts.
    Mr. Watts. Thank you, Chairman. Good question. I will leave 
some of the details about the coordination between some of the 
other governments in the region to the other speakers. I can't 
say specifically, because I haven't had first-hand knowledge, 
and I wouldn't. You know, it would be Classified if it was, of 
the degree to which the Australian Government shares 
information with Indonesia and other governments in the region. 
I can tell you, there is close cooperation.
    One of the key elements that we didn't bring us with 
Detachment 88 in Indonesia, which is a counterterrorism unit 
that was stood up after the Bali bombings and was funded and 
had trained support from both the Australians and the United 
States, FBI, and others in terms of building capacity. That 
group is a spearhead. Their approach to counterterrorism is 
something that we can learn lessons from. It is not just about 
offensive capabilities. It is about understanding through 
intelligence networks the lay of the land. It is about our 
running rehabilitation programs and getting a message through 
to, you know, potential jihadists or actual jihadists and 
turning them away, and that has had around about a 50 percent 
success rate at rehabilitating insurgents.
    One of the things that is going to come through a lot of 
the discussions here has been many of the problems here are 
hyper-local. ISIS or al-Qaeda or whatever is just the current 
brand that they are attaching to. The actual discontent or the 
political motivations from many of these groups go back many, 
many years. Abu Sayyaf is a good example. They have been 
fighting for decades. The degree to which they are actually 
interested in ISIS' ideology, is very questionable. It is 
probably a pragmatic move, as was stated, in order to raise 
their profile and get more funding.
    If ISIS goes away, if al-Qaeda goes away, those problems 
don't go away, those political discontents. So what that means 
is most of the groups are focused on their issues within their 
own territory. There is a handful of ideologues, who have a 
broader intent to, you know, kind-of, ban the groups together, 
but it seems to be a very, very small portion of the jihadists 
who actually want to do that. So the majority of the 
counterterrorism action needs to be hyper-local, focused inward 
by the governments themselves onto the local conditions. Even 
within Indonesia, you know, across the 6,000 inhabited islands, 
you know, the provinces themselves need to focus on the issues 
within their provinces as much as across the country as well.
    So I believe there would be sharing. I can't tell you to 
what degree that sharing happens, but I will say that United 
States, and Australia, is already providing a lot of support, 
particularly to Indonesia, and that's been a large part of 
success in combating Jamar Islamir in the early 2000s.
    Mr. King. As I said, I am aware, certainly, with our 
country, the tremendous amount of intelligence sharing with 
Australia. Thank you.
    Mr. Skinner.
    Mr. Skinner. Yes. As I said, Detachment 88 is a really good 
success story that can be modeled, you know, in Malaysia and in 
the Philippines. You have the ASEAN level of--where they--it is 
not threat information, but it is the policies and 
capabilities. Then you go down to the global counterterrorism 
forum, the JCPF, which all of the countries in the region are--
they are very active and have a really good hub and is anchored 
by Australia.
    The capacities differ and also the threats differ. The 
Philippines, they have a big problem in the south, and that is 
almost beyond a CT effort. That is a military effort, and the 
United States is providing a lot of support. We have been for 
years, and we are increasing it again.
    Malaysia has less of an organized group threat than they 
do--they just have a lot of people that have extremist 
tendencies. They are pretty good at arresting them. They have a 
very good day intelligence service, and they have a really good 
counterterrorism police.
    Indonesia, their problem is the resurgent Jemaah Islamiyah. 
I agree that the depth and the history and the network of a JI 
in Indonesia just dwarfs Islamic State. Now, Islamic State 
might make a push. They are sympathizers. I know that Singapore 
and Malaysia obviously where they are border crossings, they 
have relatively day-to-day intelligence sharing. The same with 
Indonesia a little bit between Singapore.
    It is just the threat. It is so different in all these 
places. So it is hyper-local. But I haven't seen that--or 
having talked to these people, I haven't heard that lack of 
intelligence sharing is an issue. I mean, if the threat grows 
more broadly, then, yeah, of course, it will be, because even 
in the best functioning governments or bureaucracies, things 
get through the cracks. But I think that they are probably 
doing well. What they need is, you know, local solutions which 
are in their hands which we can empower.
    But I really believe that rule of law, counterterrorism 
specialties like Detachment 88 are something that is very hard 
to overstate how much positive work they did after Bali. So if 
that could be replicated, and it is in varying degrees, that is 
a really low-cost approach with a huge payoff.
    Mr. King. Ms. Peery.
    Ms. Zaidi Peery. While I agree that the issues are very 
local and engagement with communities will require specific 
policies between governments and their respective provinces, I 
do think the region has an opportunity as a region to meet and 
at least discuss certain macro issues from immigration to at 
least having unified laws with regard to banning travel to join 
a militant group or going to training camp. This, for example, 
varies greatly between Malaysia and Indonesia.
    Malaysia had out loud--excuse me--outlawed travel for 
training in militant groups long before Indonesia addressed the 
issue. I believe as of last year, even in Indonesia, it was not 
illegal to join ISIS, but it had been in Malaysia for some time 
prior.
    Immigration, and traveling between the region and going to, 
you know, Europe and other parts of the world, these are 
opportunities to have better security measures and potentially 
even unify them in a way, at least travel can be tracked.
    So there are opportunities for these countries in the 
region to compare and contrast what is going on and how they 
are being affected by each other. For example, as I mentioned, 
if ISIS can meet different militant groups in the Philippians 
last fall to talk about attacking Malaysia, there is a reason 
for Malaysia and the Philippines to talk to each other. I 
assume that intelligence sharing is happening, but as Mr. Watts 
mentioned, I am sure a lot of it is because it is happening 
now. These are Classified details that we are not privy to. But 
the details and community issues, whether it is Mindanao or 
Aceh, that is local.
    Mr. King. Thank you, Ms. Peery.
    Dr. Liow.
    Mr. Liow. Thank you, Mr. Chairman.
    Yes, there is a bit of information sharing and intelligence 
sharing amongst these security services of, say, Singapore, 
Malaysia, Indonesia, Philippines. One of the problems, though, 
is that they are so--within individual countries, there are so 
many intelligence services or branches involved that it gets 
complicated. The information you get from agency A as compared 
from agency B is--could be different. So that poses a problem. 
That speaks to the issue of within these individual countries, 
interagency cooperation needs to be improved. But over and 
above that, from a regional perspective, I think the challenge 
now is for these regional states to go beyond information 
sharing, to actually consider, if I may say so, joint 
operations. I think it is about time they look into that.
    We think that--well, I think that it is very important to 
consider that simply because of the problems in the tri-border 
area that a number of my fellow panelists alluded to. This is 
between the Sulu Sea, the Celebes Sea, in Indonesia, and the 
waters off the coast of Sabah. These are really ungoverned 
areas, ungoverned waters, and these form very effective 
communications and networks for militant groups and terrorist 
groups, and it has been the case for decades. Regional states 
have not been able to mount any sort of joint operations to 
deal with this threat.
    Part of the problem is because they have their own baggage. 
Right? For example, the Filipinos and the Malaysians are 
concerned that if you push cooperation too far, this issue of 
the Philippine--the dominant Philippine claim to Sabah, for 
example, will surface. So it does run into these issues, but at 
least as far as trying to cope with the threat of militancy and 
terrorism is concerned, I think that some serious thought 
should be given to joint operations or even having some sort of 
joint security presence in that tri-water area in the form of a 
base or center or something to that effect.
    Mr. King. Okay. What exact area are you talking about now?
    Mr. Liow. It is the waters that border southern 
Philippines----
    Mr. King. Right.
    Mr. Liow [continuing]. Which is the Sulu Sea, northern 
Sulawesi, which is the Celebes, that is C-e-l-e-b-e-s, and the 
waters off the coast of Sabah in Borneo.
    So I have a map in my testimony where it shows exactly what 
this area is.
    Mr. King. Great. Thank you.
    Ranking Member, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. I just--Ms. Peery, 
you indicated in your testimony that the largest population, 
Muslim population, in the world is in Indonesia, and 70 percent 
of those supporting websites are from Indonesians. But 
Southeast Asia has been pretty effective in suppressing ISIS. 
So could you just reiterate the reasons as to why that is?
    Ms. Zaidi Peery. Certainly. Can you hear me?
    Mr. Higgins. Yes.
    Ms. Zaidi Peery. Okay. Sorry.
    So the point I was trying to make was, in part of being 
proactive about moving extremist rhetoric away from the 
populations that are vulnerable to radicalization, one of the 
biggest issues is the fact that there is approximately 2,000 
websites, pro-ISIS websites, in the region. The fact that 70 
percent of the servers that host these websites come from 
Indonesia actually give Indonesia a wonderful opportunity to be 
a proactive and aggressive. Very quickly change the dynamic of 
ISIS' communications, because the vast majority of the hosting 
is coming from companies within Indonesia.
    I agree with you that in absolute numbers, we are not 
looking at a huge extremist problem. We have over 140 million 
Muslims in Indonesia and approximately 300 that have gone to 
become foreign fighters. But what I am concerned about on a 
broader level is the ideology and the attitude of separatism, 
that the ISIS message is spreading in these societies where 
prior to this extremist rhetoric, Indonesia has and continues 
to maintain overall a much more pluralist interpretation state.
    So in preventing a future change, which is why I mentioned 
what is happening in the United Kingdom as kind-of a case study 
of what you don't want to become if you are not proactive now.
    Mr. Higgins. So Indonesia is effective in integrating the 
Muslim population?
    Ms. Zaidi Peery. I am sorry?
    Mr. Higgins. Indonesia is relatively effective in 
integrating----
    Ms. Zaidi Peery. Well, not even just that. It is Islam that 
has been practiced for centuries have always been different. 
One of the issues with extremist rhetoric is that it is 
foreign-born, and it has come to the region from funding or 
extremist groups and then it is proliferated through their 
proselytizing. So for Indonesians who don't have the identity 
issues that is prevalent in places like Pakistan or the 
relatively new Nation State of the Middle East, they know who 
they are; they know what their culture is.
    Mr. Higgins. Is there an estimate as to how many 
Indonesians are in Iraq and Syria as ISIS fighters?
    Ms. Zaidi Peery. The numbers, depending on the source, vary 
as low as 300-something and go upwards of 800.
    Mr. Higgins. Is there an ISIS presence in India?
    Ms. Zaidi Peery. At a speculative level right now. There 
isn't enough information coming in yet to show that there is. 
But there is--excuse me. There is AQIS, al-Qaeda, and the 
Islamic subcontinent, and with that umbrella branch trying to 
unite Islamist groups between Afghanistan and Bangladesh 
including India, there is increased pro-ISIS activity from 
Pakistan and Bangladesh and with India sitting right at the 
center of it and being a specific target.
    It is, again, low numbers right now, but the activity is 
legitimate. So these are--the conversations we are having today 
it is so important to keep on discussing the roles that 
extremist rhetoric is playing in these societies and trying to 
balance how we can practically push back without being 
alarmists or without being unnecessarily aggressive.
    Mr. Higgins. As Iraq and Syria continue to retake territory 
previously held by ISIS, what is the impact of that phenomenon 
on ISIS activity in Indonesia?
    Ms. Zaidi Peery. To be fair, I think that would be 
speculation on all our parts. But in my opinion, it would be an 
opportunity for them to focus on other regions where they have 
cells or have individuals that are sympathetic to their world 
view. If they are going to lose territory in one place, they 
are going to try to get more elsewhere, because for them their 
mission statement is global.
    Mr. Higgins. But doesn't ISIS lose a very important 
component to its recruiting tool if it is perceived to be 
retreating as opposed to expanding?
    Ms. Zaidi Peery. Possibly, but there are enough 
organizations that are like-minded from al-Qaeda to Hizb ut-
Tahrir to not remove the risk of radicalization from the 
communities.
    Mr. Higgins. The point I am trying to make is this: That if 
our strategy by sending more U.S. troop personnel to Syria and 
Iraq to combat the ISIS expansion, and if that is successful, 
aren't we, in effect, undermining ISIS's ability to grow in 
other regions?
    Ms. Zaidi Peery. Not necessarily.
    Mr. Higgins. Everybody agree with that?
    Mr. Watts. Again, it is speculative to decide. There is 
going to be 2 sides to it. The one is for every action there is 
a counter reaction. So as we squeeze them in one area, they are 
going to look to survive. Again, endure and expand has been a 
key motto for them.
    So there is currently a debate amongst some of the senior 
leaders in Syria and Iraq as to whether they should maintain 
their territory, because that is the central message of why 
they differentiate from other terrorist groups, that they have 
actually established the caliphate that many others talk about 
and aspire to. They have actually done it. If they lose that 
talking point, their narrative is undermined.
    However, the group has been squashed before, almost within 
an inch of its life, and it's come back. It's done that because 
it knows how to go to ground and disperse. So if the pressure 
on them becomes such that they make a decision that they can no 
longer hold the territory, they will make the pragmatic 
decisions. As much as they are idealists, they are a very 
pragmatic organization, and they will look for ways to spread 
that.
    Going to your earlier question about why has there not been 
a larger attraction in Indonesia. I agree with everything that 
Ms. Zaidi said, but it also goes to the fact that those areas 
are politically empowered. The Muslims in those countries have 
actual political processes to achieve their ends. There are 
fundamentalist Islamic parties in Indonesia that have tried to 
go through the Democratic process, and have been rejected by 
the majority of voters.
    The difference between Indonesia and, say, Yemen or Egypt 
or any of the other countries, perhaps, in the Middle East is 
that the economic situation is better there. The political 
system is stable. They have political mechanisms to pursue 
their objectives and, therefore, they don't have to resort to 
the more violent extremes. It also has to do with culture and 
messaging and many, many other things, religious traditions, 
but at a very simple level, that is a really important 
differentiator between countries in Southeast Asia and 
countries in the Middle East, and that is why it is hard to 
compare the 2.
    Mr. Liow. Thank you, Mr. Higgins. Just to add on to some of 
the points that my colleagues have raised. In other--let me 
start with the issue of why there are so few Indonesians. I 
think we have to bear in mind 2 things.
    No. 1 is that you have in Indonesia an increasing need 
conservative Muslim society. So I am not entirely sure about--
or I am not entirely persuaded by this--the orthodox view that 
you know, Indonesian, Islam has always been--I mean, for the 
most part, but they have always had a radical fringe since the 
18th Century.
    So the question is, where does it get from conservative 
society to pro-ISIS? I think that is a very big jump. That 
leads me to my second point.
    In Indonesia, in the radical Muslim intellectual community, 
there is a very intense debate going on now about this issue of 
whether Muslims are legitimate target of terrorist acts. This 
is where a lot of the militant groups defer. This is where 
Jemaah Islamiyah has major differences with the pro-ISIS 
groups, because they are of the view that we should be 
minimizing Muslim casualties; in fact, from Bali 2002, they 
have been having this debate already.
    So this, I think, explains why on the one hand, you see a 
very conservative trend in Indonesians, slightly, but on the 
other hand, it doesn't quite translate to pro-ISIS support.
    Also, just very quickly, there is also the issue of why 
Indonesians and Malaysians are going to fight in Syria and Iraq 
in the first place. Speaking to a number of Malaysian 
detainees, it is very interesting. For them, they buy into the 
eschatological logic of ISIS, that they are fighting the end-
time battle in Syria. So if that is the case, it stands to 
reason that they won't want to come back. They want to fight 
the end times in Syria as they are called to.
    In the case of Indonesia, on the other hand, a number of 
the people who have joined pro-ISIS groups have done so not so 
much because of doctrine of theology but because of personal 
allegiances to individual ideologues and leaders, which also 
means they can shift. Indeed, if we manage to push back ISIS, 
you might actually see that. You know, because a lot of them 
came from the Jemaah Islamiyah background. They could very well 
move back.
    I will end with an example of Abu Bakar Bashir, who we all 
know is the spiritual leader of Jemaah Islamiyah, who made an 
oath of allegiance to ISIS but has since retracted that oath of 
allegiance saying that now he understands better what ISIS is 
about, and he doesn't quite agree with them today. So that 
phenomenon can happen as well.
    Mr. Skinner. Just real quickly. I think whatever--so the 
effort that we are putting into Iraq and Syria, whatever threat 
that might come from squashing them there and like the ink blot 
where it goes somewhere else, and in particular here, Southeast 
Asia, I think that is a manageable risk.
    Now, it is a real risk, and it needs to be addressed, but I 
think it pales in comparison to the damage that if they lose 
that self-proclaimed caliphate in Raqqa, the damage that does 
to their global brand, because a lot of their world-wide 
allegiance is superficial bandwagoneer. It appeals to a certain 
criminal mind set and a lot of disaffected people.
    So the damage to do to that group, No. 1, it is 
categorically imperative to help Syria and Iraq to get rid of 
this, because for them it is an existential threat. So applying 
pressure there and toppling them there, yeah, it might lead 
them to look for other places. Libya is proving harder than 
they ever thought, because they don't have that secretarian 
wedge. I mean, they don't have that wedge in Southeast Asia 
either. They have maybe ethnicity, but it is going to be hard 
for them to play that card. So they are going to try to tap in 
to preexisting networks that have a sanctuary, which is a 
couple of places, but I think that the risks are managable.
    But, yeah, it is a real--you know, you would be foolish not 
to think that if they get pushed out of there, they need a 
physical place. Foreign fighters have to go somewhere. They 
have to have a place to put the black flag. It is not all 
propaganda. They need some kind of on-the-ground reality.
    Mr. King. Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman.
    I have a couple of questions. I just want to follow up on 
what you said with respect to the importance of having a 
caliphate in Syria and Iraq.
    First of all, Syria and Iraq are probably more unstable 
than most places in the world, and that was easier for them to 
establish it there. But also one thing we haven't mentioned, it 
is fair to say that the money flow is also important in Syria 
and Iraq?
    They have oil, and they have resources they can tap into 
there that they may not have access to elsewhere. Without 
money, they are going to be less effective. Is that fair to say 
as well?
    Mr. Skinner. Yes. I mean, foreign fighters like to be paid. 
You know, their logistics like to be paid. They are able to buy 
weapons at--you know, they are not hurting for weapons in Iraq 
and Syria. So cutting their money, there isn't a downside to 
that. So if they move--if they splinter and some of them go to 
establish or rely or even a caliphate in Southeast Asia, it is 
going to be a shell of the organization.
    Syria and Iraq are the perfect place for them to thrive. 
They will not have that type of--they will have to revert back 
down to a terrorist group instead of a proto-state.
    Mr. Katko. All right. Thank you.
    In my other capacity, in my other subcommittee I am on in 
Homeland Security, I was put in charge of what is called the 
Foreign Fighter Task Force, so I am interested in the flow of 
foreign fighters. I know from Western Europe that there is 
thousands upon thousands of people that they believe went, and 
they think there are hundreds in the United States. I think 
both of those numbers are probably dramatically lower, because 
we only know what we know. We don't know what we don't know as 
far as some who may have gone there.
    So I want to kind-of probe you as to Southeast Asia. I know 
these numbers sound very low, but how much confidence do you 
have in the numbers about the foreign fighter flow from 
Southeast Asia to Iraq and Syria? Anybody can take that.
    Mr. Skinner. Yeah, it is probably low, but maybe not as 
dramatic as--the thing is, foreign fighters, especially--it is 
so weird. They were radicalized in open source. They were 
basically social media announcing the radicalization. Then the 
government--you could count this up, and we did a lot of that, 
and the numbers would come close to what the U.S. Government, 
with all their information, would come up. Because these people 
weren't trying to hide. But these were really lagging 
indicators.
    By the time you count these things that is a year or 2 ago, 
I think that we dramatically underestimated what was happening 
in 2013 and 2014, and that we are probably now trying to catch 
up. We think, oh, no, the flows are still that. So basically, 
that is why the estimates were all over the map.
    In 2014, we completely underestimated the size of the 
group, but also the size of--I mean, there were a lot of people 
going there. Now we have got to understand that--I think the 
United States and Department of Defense put out a number 
yesterday that it's really dropped. It took several years for 
that to happen. It wasn't just closing a border. It was 
everybody stopped--and most of these people are stopped at the 
airport. I would say, again, we constantly overestimate our 
ability to track foreign fighter extremist travel. I mean, even 
here, I--there are people that have gone that we don't know. So 
it would be foolish to think that in Indonesia, that that 
number is exactly 600. Because it could literally be between 
like 500 to 700, but that is that we know of, and that is what 
they announced. Some of it is open source, some of it is not 
open source.
    So I really think that--in my old job, I was always 
optimistic. The problems were never as bad as they seemed. We 
haven't proven the ability to monitor this, and we are way 
behind the curve.
    Mr. Katko. Mr. Watts.
    Mr. Watts. Thank you, sir. Excellent question. I haven't 
studied this in detail, so I can't say with any confidence in 
numbers, specifically, but I will say that the--what I had seen 
when I read in the research, there is some very, very specific 
information where they have spoken to the individuals involved, 
and they can actually track specifically, you know, person No. 
1 went to his friend and asked how to get to wherever, and he 
got knocked back and went to friend No. 2. He got in touch with 
friend No. 3. They had some very specific information.
    As mentioned before, the counterterrorism efforts in 
Indonesia in particular are very sophisticated. They rely on 
heavy intelligence and human sources. They have informants 
within some of these groups. They know where they are, even if 
they can't affect them, they know where they are. They know 
where the networks are. They know who the key personnel are.
    So I absolutely would agree. We can't say specifically how 
many the numbers are, and we can't really be sure, but I think 
that we can have some confidence they are not radically 
different to what they are, because, you know, there would be 
some sign-up within these networks. The informants would have 
picked it up. You know, these groups are quite tight-knit. 
There is literally a handful of key personnel who everyone 
knows and speaks to and interacts with. So I think we have some 
confidence that while they might not be exactly what we see, 
they are not going to be radically different to the numbers 
that have been quoted.
    I just point out with the foreign fighters. As much as the 
foreign fighters coming back, I would like to reinforce the 
comment that was made earlier, those that are going over 
predominantly want to be there because they want to be there, 
not because they want to come back and bring the skills back. 
It is a very different mentality.
    But even if ISIS went away or even if al-Qaeda went away, 
the terrorist threat in Indonesia will not, necessarily, or 
Southeast Asia will not necessarily be less, because, again, 
those motivations for those groups, the political grievances, 
are local as much as they are in the broader ideological state. 
It doesn't necessarily shift the threat analysis.
    Mr. Katko. That is a perfect segue to my question for Dr. 
Liow, or more of an observation, really.
    You have indicated, I think, in your testimony that you 
must take care not to exaggerate the threat of ISIS in 
Southeast Asia, and that ISIS right now isn't the biggest 
threat there. I think that is consistent with what Mr. Skinner 
is saying in his testimony as well. That is understood. I mean, 
it is not the biggest problem right now.
    But I think it is probably different in Western Europe than 
it is for Southeast Asia right now. But despite that, can any 
of you tell me if there is any particular area of Southeast 
Asia where you are most concerned about the possible rise of 
ISIS-related activity?
    Mr. Liow. Maybe I will start.
    A specific area, I think, would be the Sulu Archipelago 
Basilan, the island of Basilan, because again, as I mentioned 
earlier, it is ungoverned space. The Philippine military--I 
mean, I have friends in the Philippine military, but if you 
look at--the Chairman mentioned the operations on the 9th of--
on April 9. I think that was quite an embarrassment for the 
Philippines special forces, and it is not an isolated incident 
either.
    So the capability, the capacity that the Philippines has to 
manage--to deal with the threat in that area is very low. It is 
very low, which is why I--my view is that we have to really 
look beyond just joint information sharing. You have got the 
information. You have got the data. They still cannot do 
anything with it. We need to really look at operations.
    The United States to some extent is already present there. 
The Australians I think would take an interest as well as a 
number of Southeast, Malaysia, Singapore, as well. But you know 
it runs into issues of sovereignty and things like that. But 
that area, in terms of a specific geographical area that would 
be a source of concern, that would be it. Whether it is ISIS, 
whether it is Jemaah Islamiyah, Abu Sayyaf, et cetera, it is 
all happening there.
    If I could just react very quickly to your earlier point?
    Mr. Katko. Sure.
    Mr. Liow. About the numbers. I agree with my colleagues. It 
is not a precise science. I think that at least the figures I 
have seen are about 700 in total of Southeast Asians, by far 
the majority from Indonesia, a handful from Singapore, and 
there are suspicions of a handful from Philippines as well but 
not confirmed. I think we have to bear in mind two things.
    The first thing, as I mentioned in my testimony that 
certainly, in the case of Indonesia, we have noticed a large 
number of the men and children who are going there because they 
are relocating; they are doing the hijrah. Right? The families 
are relocating to the pristine Islamic State. They are going to 
stay there. They are going to grow up there for better or for 
worse.
    The second point is there is quite a significant casualty 
count as well. As far as the Malaysians are concerned, if they 
work on the premise that there are about 100 there, figures I 
have seen--and you can actually get it off YouTube, where there 
is a number of clips where militants talk about--they actually 
talk and film information about operations that they have 
conducted a few years--a few days prior, and there are at least 
about 12, 13 Malaysians that have already been killed in Syria 
and Iraq. Mostly in Syria, one in Iraq.
    In the same manner, Indonesians as well, we are talking 
about 40 or 50 of them. So this is about roughly about 15 
percent, 20 percent of the figures that we are talking about. 
So there is a casualty count as well. I just wanted to put that 
up.
    Mr. Katko. I thank you.
    Mr. Skinner.
    Mr. Skinner. Yes, I agree. There are 2 ways to look at it. 
The south Philippines would be the perfect large-scale ISIS 
presence, because that area is not going to be controlled any 
time soon, hasn't been for decades. That provides them a 
sanctuary, a place to literally stay and to recoup or to 
rebuild and also to plant. I mean, that is what they do. That 
is why we tried to deny sanctuary.
    So if they got there, I would probably say that is the No. 
1 spot.
    Another concern is what we are seeing in Bangladesh is 
truly horrifying, because we are watching in slow motion, but 
real time, how this extremism works. It is not that they have 
the best message, they just need to be the monopoly of the 
message. To do that, it is not a metaphor. They literally kill 
the messengers. So we always talk about credible voices and 
these people need to stand up, well, they are, and they are 
getting slaughtered.
    In Bangladesh, that would be a night--I mean, I focus on 
counterterrorism, and that would be a nightmare scenario. 
Bangladesh is, for all their--all its problems, a relatively 
stable society. They have a lot of good politics, but so do we.
    I think what we are watching there is this slow motion 
slaughtering of other voices and they are targeting--these are 
not randoms. They are going at, you know, certain alternative 
voices and mainstream, even. So if you start seeing that in 
Jakarta, you start--every now and then you see a blogger killed 
in Jakarta, or new--you know, weird newspaper killed in Kuala 
Lumpur. You see that a couple of times, that is a real sign of 
a society that there are not just gangs and criminal gangs, 
which ISIS is basically a criminal gang, but they are making a 
push to frighten. All they want is people not to speak up. They 
don't really care if they believe them or not, they just want 
them to be scared. Hacking people to death with machetes, it 
doesn't cost anything and the pay-off is huge.
    I think that southern Philippines would be a territorial 
gain for ISIS, and they might try to go there and they might 
not. I mean, if I were them, I would. There is no cost, why 
not, because it is so uncontrolled. But if you start seeing in 
the cities attacks on media, news, bloggers, radio 
personalities, that is a real, real bad sign.
    Mr. Katko. Thank you.
    Mr. Watts.
    Mr. Watts. Thank you, sir. I just want to point out a few 
other areas. As I mentioned in my testimony, some of these 
areas have grievances going back 50, 60 years, back to the 
independence of Indonesia. Any of those areas that, you know, 
have links way back to Darul Islam are areas of potential hot 
spots, again, in Indonesia, specifically and Poso in central 
Sulawesi, there is known cells there. Some of the groups are 
operating out of there. Again, the Indonesian Government and 
police forces know this. They are watching it. They are 
conducting operations as we speak to try and eliminate that. 
There is a local sympathy for the broader cause if not the 
methodologies.
    The area that I think is of great concern is Aceh. Aceh is 
for a long time been an area of insurgency with Indonesia. It 
has sought autonomy for a long time. It has been very quiet in 
recent years, but that is mostly due to tsunami from, you know, 
about a decade ago. There was a huge amount of piracy in that 
region. There was a huge amount of insurgency in that region. 
Quite literally the pirate boats got wiped out by the tsunami. 
The impact it had on the region saw that the insurgence and the 
government forces come to together to try and repair.
    We are now seeing the effects of that wear off, and we are 
seeing all the animosity start to grow out again. There has 
already been some training camps identified in Aceh. It is an 
area with, again, long-standing discontent, political 
grievances. There is a deep sense of needing autonomy for the 
region, and whether or not, it is Islamic as well and they want 
to see Sharia law imposed, but it is autonomy as much as 
anything.
    Again, whether ISIS is there, whether Jemaah Islamiyah is 
there, that area is going to continue to be a hot spot where 
insurgent groups and terrorist groups are going to want to 
operate out of.
    Mr. Katko. Thank you very much, Mr. Chairman.
    Mr. King. Thank you, Mr. Katko.
    Again, I would ask all 4 panelists, if ISIS did decide to 
officially designate or associate itself with one of the 
organizations in the region, what impact would that have? Also, 
is ISIS considered a competitor to al-Qaeda in that region or 
the two as being the same?
    Yes, Ms. Zaidi Peery.
    Ms. Zaidi Peery. A specific answer to your question, there 
is the possibility that if ISIS did become affiliated with a 
specific group in southeast Indonesia, there is a view that to 
now, these localized groups have questionable levels of 
training and sophistication, and capability, that that 
capability would increase with the influence and help of ISIS 
militants from the Middle East. I think that is a concern 
country to country, because as has been previously mentioned, 
there are hubs. There are already certain training camps 
present. If there is increased collaboration, there is a 
potential for greater sophistications. There is one example 
that I have, in early April a Moroccan bomb maker named 
Mohammad Khattab was killed in the Philippines. This was the 
incident in early April where reports had mentioned 18 law 
enforcement soldiers that were killed in a skirmish.
    So again, right now, we are limited to specific incidences 
here and there, and--but increased collaboration is going to 
raise these questions in terms of scenario-building and trend-
watching that what was before specific militant groups with 
specific issues in their region fighting with their local or 
federal governments that the expansion of targets would become 
more indiscriminate, because that is ISIS' preference. They 
wanted to create chaos.
    So what was something that was happening in--excuse me. 
What was, let's say, serious skirmishes in Mindanao might be 
called on for or larger cities across the region, because that 
is what ISIS needs to make the next video.
    Mr. King. Mr. Skinner.
    Mr. Skinner. Yes, that is a really good point. We are 
having--it is not a debate, but in the United States we are 
sending additional Special Forces or Special Operation Forces 
to train and advise. As you know, these people are very 
skilled, and you only need a couple of them to act as a force 
multiplier. I think that if--and they are probably trying to do 
it now, ISIS, to send them to wherever their home countries 
are. But if they make it official, which they have been pretty 
hesitant to do. They have declared or relied in Southeast Asia, 
yeah, they might try to send some of their best trainers. Just 
as we believe in train and advise, so do they. I mean, talent 
goes to talent.
    So if they sent a couple of trainers, it will do two 
things. It will increase the legality of these groups. It will 
also--it might cause some kind of bandwagon thing where a lot 
of rival groups that aren't ideologically--you know, they are 
just more like rival small gangs kind-of join up, and that 
increases the manpower of that pretty existing group.
    ISIS isn't replacing these groups. It is not like they are 
moving an army from Raqqa to Mindanao or something. You know, 
they are just plugging into these preexisting groups. So if 
they go all out and make a big media push and they put 
caliphate on the line and say, there is a new allied here, they 
might get more capability, maybe a little funding. It is hard 
to know in how much they can go, you know, we are trying to 
decide in Boko Haram too if that is happening. But it certainly 
would increase some kind of support for the young kids.
    But there is no love lost between JI, which is still the 
major threat there. They are the mafia there. They have been 
there forever. The best ISIS could try to do is try to do what 
they doing in the Taliban and try to splinter some stuff off. 
But the most important part is, they are going to broaden. If 
ISIS goes there, they are going to go from attacking a police 
station for a real reason to attacking anybody anywhere. I 
mean, that is their motto. If they do that, you will see just 
an indiscriminate campaign.
    Mr. King. Mr. Watts.
    Mr. Watts. Just two points. It was mentioned earlier, I 
think, by Dr. Liow, there is debate within the groups within 
Indonesia, the jihadist community, within the conservative 
community, about whether or not they really appreciate or agree 
with ISIS' methods. There is a huge amount of jihadist groups 
who reject them for that very reason. So the question: Would 
there be competition? Absolutely there would.
    The split between Jabhat al-Nusra and ISIS in Syria caused 
huge rifts within some of the key members within the jihadist 
community in Indonesia, as some back the al-Qaeda-backed groups 
and some went with ISIS, so there would be tensions and 
problems between them as to who would align with the other, and 
there would be problems with ISIS' methodology and ideology for 
some of those groups.
    Having said that, to focus purely on Islamic groups or 
jihadist groups I think would be short-sighted. Again, ISIS has 
shown itself to be extremely pragmatic in the way that it 
creates alliances. The very alignment between the Baathists and 
ISIS in the early days of their expansion is a perfect example 
of that. If groups within Indonesia who may not have an 
ideological alignment with ISIS see that there is some benefit 
to jumping on board, getting funding, if there is something 
they are going to gain from it, they may band with them, even 
if they don't buy into the ideology, so I think there are two 
aspects of that that needs to be considered.
    Mr. King. Dr. Liow.
    Mr. Liow. Thank you.
    I think that the threat, the concern, really, will be about 
the groups in the southern Philippines. Some Philippines you 
have a whole of, you know, proliferation of militant groups, 
and they are always looking for an ideology, and they will go 
with the flow. I mean, Abu Sayyaf is a prime example, you know, 
align themselves with al-Qaeda, and now they are aligning 
themselves with--align themselves with ISIS. You know, very 
conveniently disregarding the kind of differences that al-Qaeda 
has with ISIS. Right? So I think the manageability of the 
ideology of southern Philippines groups, I think, would be a 
cause of concern as far as ISIS looking to work with groups in 
the region is the issue.
    In the case of Indonesia, again, there is rivalry between 
pro- and anti-ISIS groups. The danger there is that the 
Indonesian government is starting to give publicity and a 
platform for anti-ISIS elements who are from the jihadi 
community. So they are giving Jemaah Islamiyah leaders a 
platform from which they can discredit ISIS. But there is a 
problem there, quite obviously, because these people have a 
jihadi agenda as well. They will very quickly be able to use 
the visibility and publicity that they have been given to 
advance the agenda. So I think there is an issue there.
    Last point I would raise is I think a big concern, which we 
didn't talk about, is the case of Malaysia. Because unlike 
Philippines and unlike Indonesia, Malaysia, you are looking at 
the individual radicalization. The nature of this sort of 
radicalization is that it is much more difficult to monitor and 
much more difficult to deal with as opposed to looking at 
groups.
    Mr. King. Thank you, Dr. Liow.
    Any further questions? Ranking Member? Mr. Katko? Okay.
    It is my job now to thank you for your testimony. I want to 
tell you how sincerely I mean it. This was as enlightening as 
any testimony we have had before this subcommittee, and quite 
frankly, before the entire committee. This has been extremely 
helpful. You put it in terms that all of us could understand, 
which is somewhat of an achievement. I want to thank you for 
that.
    Now, the Members of the subcommittee may have some 
additional questions of witnesses. We ask you to respond to 
those in writing. Pursuant to committee rules, the record will 
be held open for 10 days.
    Without objection, the subcommittee stands adjourned. 
Again, thank you very much.
    [Whereupon, at 11:23 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Questions From Ranking Member Bennie G. Thompson for John T. Watts
    Question 1. In recent months, there have been a number of attacks 
targeting activists and bloggers, as well as violence toward non-Muslim 
individuals in Bangladesh, Indonesia, and other countries in the 
region. The cruel murder of a locally-hired employee of USAID and the 
founding editor of Bangladesh's only LGBT magazine, Xulhaz Mannan, this 
past weekend only serves to further highlight the growing tolerance for 
violent discrimination. These attacks have understandably caused 
writers and journalists to become hesitant in publishing work that 
would attract attention from potential assailants.
    How is the United States assisting in protecting freedoms of speech 
and assembly in Bangladesh and neighboring countries?
    Answer. Response was not received at the time of publication.
    Question 2. As with so many other states, Bangladesh's current 
political climate and increasing human rights restrictions have pushed 
many in the public to seek violent solutions, including extremist 
ideologies.
    How is the United States addressing the root causes of this 
violence and working with Bangladesh to bring warring political 
factions together to negotiate a peaceful settlement, allowing it to 
successfully counter external extremist organizations, such as ISIL, 
from gaining a foothold in the country?
    Answer. Response was not received at the time of publication.
    Question 3a. In many cases in Europe, North Africa, and the Middle 
East, the cruel and harsh treatment within prisons has essentially 
acted as an incubator for radicalization among inmates. Some countries, 
such as France, have sought to address this issue by isolating 
prisoners suspected of being radicalized; however, many experts believe 
this does not effectively address the issue of radicalization.
    What methods should countries employ to reduce the possibility of 
radicalization inside prisons? Are countries in Southeast Asia making 
efforts to restructure their prisons or address the potential for 
radicalization within prisons?
    Question 3b. Are there any case studies in which countries can use 
as a template for success to reduce radicalization through 
rehabilitation and educational activities?
    Answer. Response was not received at the time of publication.
Questions From Ranking Member Bennie G. Thompson for Patrick M. Skinner
    Question 1. In recent months, there have been a number of attacks 
targeting activists and bloggers, as well as violence toward non-Muslim 
individuals in Bangladesh, Indonesia, and other countries in the 
region. The cruel murder of a locally-hired employee of USAID and the 
founding editor of Bangladesh's only LGBT magazine, Xulhaz Mannan, this 
past weekend only serves to further highlight the growing tolerance for 
violent discrimination. These attacks have understandably caused 
writers and journalists to become hesitant in publishing work that 
would attract attention from potential assailants.
    How is the United States assisting in protecting freedoms of speech 
and assembly in Bangladesh and neighboring countries?
    Answer. Response was not received at the time of publication.
    Question 2. As with so many other states, Bangladesh's current 
political climate and increasing human rights restrictions have pushed 
many in the public to seek violent solutions, including extremist 
ideologies.
    How is the United States addressing the root causes of this 
violence and working with Bangladesh to bring warring political 
factions together to negotiate a peaceful settlement, allowing it to 
successfully counter external extremist organizations, such as ISIL, 
from gaining a foothold in the country?
    Answer. Response was not received at the time of publication.
    Question 3a. In many cases in Europe, North Africa, and the Middle 
East, the cruel and harsh treatment within prisons has essentially 
acted as an incubator for radicalization among inmates. Some countries, 
such as France, have sought to address this issue by isolating 
prisoners suspected of being radicalized; however, many experts believe 
this does not effectively address the issue of radicalization.
    What methods should countries employ to reduce the possibility of 
radicalization inside prisons? Are countries in Southeast Asia making 
efforts to restructure their prisons or address the potential for 
radicalization within prisons?
    Question 3b. Are there any case studies in which countries can use 
as a template for success to reduce radicalization through 
rehabilitation and educational activities?
    Answer. Response was not received at the time of publication.
 Questions From Ranking Member Bennie G. Thompson for Supna Zaidi Peery
    Question 1. In recent months, there have been a number of attacks 
targeting activists and bloggers, as well as violence toward non-Muslim 
individuals in Bangladesh, Indonesia, and other countries in the 
region. The cruel murder of a locally-hired employee of USAID and the 
founding editor of Bangladesh's only LGBT magazine, Xulhaz Mannan, this 
past weekend only serves to further highlight the growing tolerance for 
violent discrimination. These attacks have understandably caused 
writers and journalists to become hesitant in publishing work that 
would attract attention from potential assailants.
    How is the United States assisting in protecting freedoms of speech 
and assembly in Bangladesh and neighboring countries?
    Answer. Response was not received at the time of publication.
    Question 2. As with so many other states, Bangladesh's current 
political climate and increasing human rights restrictions have pushed 
many in the public to seek violent solutions, including extremist 
ideologies.
    How is the United States addressing the root causes of this 
violence and working with Bangladesh to bring warring political 
factions together to negotiate a peaceful settlement, allowing it to 
successfully counter external extremist organizations, such as ISIL, 
from gaining a foothold in the country?
    Answer. Response was not received at the time of publication.
    Question 3a. In many cases in Europe, North Africa, and the Middle 
East, the cruel and harsh treatment within prisons has essentially 
acted as an incubator for radicalization among inmates. Some countries, 
such as France, have sought to address this issue by isolating 
prisoners suspected of being radicalized; however, many experts believe 
this does not effectively address the issue of radicalization.
    What methods should countries employ to reduce the possibility of 
radicalization inside prisons? Are countries in Southeast Asia making 
efforts to restructure their prisons or address the potential for 
radicalization within prisons?
    Answer. Response was not received at the time of publication.
    Question 3b. Are there any case studies in which countries can use 
as a template for success to reduce radicalization through 
rehabilitation and educational activities?
    Answer. Response was not received at the time of publication.
 Questions From Ranking Member Bennie G. Thompson for Joseph Chinyong 
                                  Liow
    Question 1. In recent months, there have been a number of attacks 
targeting activists and bloggers, as well as violence toward non-Muslim 
individuals in Bangladesh, Indonesia, and other countries in the 
region. The cruel murder of a locally-hired employee of USAID and the 
founding editor of Bangladesh's only LGBT magazine, Xulhaz Mannan, this 
past weekend only serves to further highlight the growing tolerance for 
violent discrimination. These attacks have understandably caused 
writers and journalists to become hesitant in publishing work that 
would attract attention from potential assailants.
    How is the United States assisting in protecting freedoms of speech 
and assembly in Bangladesh and neighboring countries?
    Answer. Response was not received at the time of publication.
    Question 2. As with so many other states, Bangladesh's current 
political climate and increasing human rights restrictions have pushed 
many in the public to seek violent solutions, including extremist 
ideologies.
    How is the United States addressing the root causes of this 
violence and working with Bangladesh to bring warring political 
factions together to negotiate a peaceful settlement, allowing it to 
successfully counter external extremist organizations, such as ISIL, 
from gaining a foothold in the country?
    Answer. Response was not received at the time of publication.
    Question 3a. In many cases in Europe, North Africa, and the Middle 
East, the cruel and harsh treatment within prisons has essentially 
acted as an incubator for radicalization among inmates. Some countries, 
such as France, have sought to address this issue by isolating 
prisoners suspected of being radicalized; however, many experts believe 
this does not effectively address the issue of radicalization.
    What methods should countries employ to reduce the possibility of 
radicalization inside prisons? Are countries in Southeast Asia making 
efforts to restructure their prisons or address the potential for 
radicalization within prisons?
    Answer. In the case of Southeast Asia, the problem is not so much 
harsh treatment of prisoners as it is the ease with which radical 
clerics have been allowed to mix with ``gen pop.'' Radicals are not 
separated from common criminals, and because of the availability of 
free time and the religious stature of some of these clerics, they are 
allowed not only to mingle but to preach to ``gen pop.'' This creates 
conditions for recruitment. Another problem is the lack of training for 
wardens and prison officers. What we have is a situation where prison 
officers are not checking visitors carefully. This means that 
struggling radical material as well as cellphones (which allows 
prisoners access to internet and various sources of radical propaganda) 
into prisons is very easy. Finally, corruption is a perennial problem. 
The United States should consider playing a more active role in 
providing professional training for prison officers, and funding for 
the creation of more separate facilities for radicals (there already 
are some, but Indonesia in particular needs more).
    Question 3b. Are there any case studies in which countries can use 
as a template for success to reduce radicalization through 
rehabilitation and educational activities?
    Answer. Singapore is widely seen as one of the success stories of 
deradicalisation and religious rehabilitation, where the recidivism 
rate is low. However, we should be mindful of the special circumstances 
in Singapore, namely, a strong state apparatus and a smaller 
geographical space which makes it more difficult for radicals to sneak 
beneath the radar.
    Question 4a. A major hindrance to U.S. assistance in Southeast Asia 
can be attributed to lack of anti-terrorist and anti-corruption 
legislation. Malaysia is enacting legislation for The Prevention of 
Terrorism Act.
    Can you expand upon the logistics of this act, and its 
effectiveness?
    Answer. The Prevention of Terrorism Act or POTA was proposed to 
eliminate potential threats of violence through any acts relating to 
terrorism. More specifically, due to the alarming threat of Malaysians 
joining ISIS. Any persons who fall under suspicion of terrorist 
activities can be detained, without warrant, up to a maximum time of 60 
days by the police. Under the approval of Yang di-Pertuan Agong (King) 
appointed 5-to-8-member Prevention of Terrorism board this can be 
extended for up to 2 years at a time. Any person who is arrested shall 
be presented to the magistrate within 24 hours unless released earlier.
    The previous Internal Security Act or ISA allowed initial detention 
of 60 days with unlimited renewals based solely on the will of the Home 
Minister. POTA has the same 60-day initial detention period as the ISA 
but with possible extensions of up to 2 years at a time relying on the 
executive power of the Prevention of Terrorism Board. There is also the 
inclusion of an electronic monitoring device that will be used to keep 
track of a suspect's location. The fact that under POTA executive 
powers of detention rest on the appointed board rather than police has 
led the Malaysian government to claim that POTA is different from the 
ISA. But it does herald a return of detention without trial in 
Malaysia, an issue of particular sensitivity given how such legislation 
can be, and has been, used against political opposition in the past. 
The major concern over POTA, like the ISA, is that it gives police and 
the appointed board the power to detain suspects without warrant or 
judicial review for an extended period of time. Though both POTA and 
SOSMA state ``No person shall be arrested and detained solely for his 
political belief or political activity'', this only refers to parties 
registered under the Societies Act. Some people therefore believe that 
POTA could be used more widely than at first anticipated.
    Question 4b. Does this act give way to an increase in U.S. 
assistance?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
